SAFETY OVERSIGHT OF AN AIR CARRIER
      INDUSTRY IN TRANSITION

       Federal Aviation Administration

        Report Number: AV-2005-062
         Date Issued: June 3, 2005
           U.S. Department of
                                                                 Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on the Audit of                                                  Date:    June 3, 2005
           Safety Oversight of an Air Carrier
           Industry in Transition
           Federal Aviation Administration
           AV-2005-062

  From:    David A. Dobbs                                                               Reply to
                                                                                        Attn. of:   JA-10
           Assistant Inspector General
            for Aviation and Special Program Audits
    To:    Federal Aviation Administrator

           This report presents the results of our audit of the Federal Aviation
           Administration’s (FAA) safety oversight of an air carrier industry in transition.
           During the past 4 years, network air carriers 1 experienced record financial losses
           and made unprecedented changes to their operations to regain profitability. While
           network air carriers have struggled, low-cost air carriers have continued to grow.
           To evaluate safety oversight during this time of transition, we conducted separate
           audits of FAA’s oversight of financially distressed and low-cost air carriers. We
           have combined the results of these audits in this report.

           We recognize that the United States has the safest aviation system in the world.
           Despite financial pressures, large U.S. air carriers have maintained an impressive
           safety record. There has not been a fatal crash of a large passenger air carrier in
           over 3 years. A number of factors may have contributed to this safety record. For
           example, air carriers are operating newer, more sophisticated aircraft and have
           established internal systems, such as Flight Operational Quality Assurance, to
           collect and analyze data to improve the safety of flight operations.

           However, given the magnitude of changes occurring in the aviation industry and
           FAA’s current budgetary and staffing challenges, FAA’s oversight systems must
           be comprehensive, flexible, and data-driven to assure the public that safety will
           not be compromised and that limited inspector resources are used in an efficient
           1
               Network air carriers are defined as carriers using a “hub-and-spoke” system (e.g., United Airlines). Under this
               system, airlines bring passengers from a large number of “spoke” cities to one central location (the hub) and
               redistribute them onto connecting flights to their final destinations.




                                                                    i
and effective manner. While FAA has made progress in moving toward a more
risk-based approach to safety oversight, FAA inspectors were not able to
effectively use the oversight systems to monitor the rapidly occurring changes.
This is a significant concern in light of the fact that FAA is expected to lose about
300 aviation safety inspectors this year and in FY 2006 is only requesting budget
authority to replace 97 inspectors. As a point of reference, there has been a lot of
focus on hiring air traffic controllers—FAA has requested $25 million to hire
1,249 new controllers during 2006, which includes 595 new positions. While that
is a critical issue for the Agency, it is also important to maintain a safety inspector
workforce that is sufficient to achieve its mission of safety oversight. Until its
risk-based approach to safety oversight is operating effectively and targeting
already constrained resources to the areas of greatest risk, FAA needs to determine
if it can make enough efficiency gains in its operations to sustain the cut in
staffing beyond 2005.

The objective of this review was to determine whether FAA’s risk-based oversight
and data analyses systems are used effectively to monitor financially distressed
and low-cost air carriers during periods of growth and change. We performed
work at FAA and 10 air carriers. To evaluate FAA oversight of financially
distressed air carriers, we selected five network air carriers—three that had
declared bankruptcy or had been reported to be close to bankruptcy and two that
had experienced significant monetary losses for a sustained period but were not
yet reported to be close to bankruptcy. To evaluate FAA oversight of low-cost air
carriers, we selected five air carriers that were identified in FAA’s Flight Schedule
Data System as low-fare air carriers, were regularly identified by the aviation
industry as low-cost air carriers, and were experiencing growth. Exhibit A
contains a list of the entities we visited or contacted. Exhibit B contains details on
our objectives, scope, methodology, and prior audit coverage.


BACKGROUND
FAA employs approximately 3,400 aviation safety inspectors to oversee
operations of commercial air carriers, aircraft repair facilities, general aviation
operators, mechanics, pilots, and training facilities. To provide oversight of
passenger air carriers, FAA uses two different inspection systems—the Air
Transportation Oversight System (ATOS) for 15 air carriers 2 and the Surveillance
and Evaluation Program (SEP) for the remaining 112 carriers. About 582 of
FAA’s inspectors use ATOS and 495 use SEP.


2
    The 15 ATOS air carriers are Alaska Airlines, America West Airlines, American Airlines, American Eagle,
    Champion Air, Continental Airlines, Delta Air Lines, ExpressJet, FedEx, Northwest Airlines, SkyWest Airlines,
    Southwest Airlines, United Airlines, UPS, and US Airways.




                                                        ii
In 1998, FAA implemented ATOS, a data-driven, risk-based approach to air
carrier safety oversight. ATOS was designed to shift inspectors away from the
inspection method they had used for over 30 years, which focused on whether air
carriers were complying with regulations, to an approach that proactively assessed
risks within air carriers’ maintenance and operations systems. Under ATOS, FAA
inspectors are to use data analysis to focus their inspections on areas that pose the
greatest safety risks and to shift the focus of those inspections in response to
changing conditions within air carriers’ operations.

In 1999, FAA developed SEP to transition the remaining air carriers, including
low-cost carriers, to ATOS. Like ATOS inspectors, SEP inspectors are to use data
and risk analysis in targeting their inspections to areas within an air carrier’s
operation that pose a greater safety risk. However, FAA requires SEP inspectors
to continue using its old National Program Guidelines, which require a pre-
determined number of inspections, along with SEP-generated inspections. In
addition, both ATOS and SEP inspectors are to use the Safety Performance
Analysis System (SPAS), a computer-based system that analyzes inspection and
air carrier data to aid inspectors in identifying safety problems.

In April 2002, we reported that although ATOS was conceptually sound, the
system was not reaching its full potential, and significant challenges to full
implementation still existed. 3 At that time, FAA had not finished developing and
testing its processes for analyzing ATOS inspection results and ensuring corrective
actions are implemented when inspectors find weaknesses in air carriers’
maintenance and operations systems. In addition, the checklists used by
inspectors to perform their inspections and gather data were too broad to provide
useful information for analyses. Also, FAA had not developed a comprehensive
program plan with target dates for further developing the system and transitioning
all air carriers to ATOS. We also concluded that FAA needed to strengthen its
national oversight of ATOS implementation to ensure consistency.

FAA has taken action to address our recommendations. In March 2003, FAA
finished deploying the last two elements of the ATOS process—analyzing data
and implementing corrective actions. In January 2004, FAA completed new
inspector checklists. Also, FAA established an ATOS program plan for further
developing ATOS but has not established target dates beyond fiscal year
(FY) 2005 for transitioning the remaining air carriers to ATOS.




3
    OIG Report Number AV-2002-088, “Air Transportation Oversight System,” April 8, 2002. OIG reports can be
    found on our website: www.oig.dot.gov.




                                                     iii
RESULTS IN BRIEF
FAA has made progress in moving to more risk-based, data-driven air carrier
oversight systems that were designed to permit inspectors to respond to the types
of changes occurring in the industry. In addition to ATOS, which was introduced
6 years ago and is now used for oversight of 15 large air carriers, FAA has
developed an interim risk-based system, SEP, for oversight of the remaining
112 commercial air carriers.

FAA’s risk-based oversight systems are conceptually sound. However, the
magnitude of changes that air carriers are making and the rapid pace at which the
changes are occurring have presented challenges for FAA at a time when its
oversight systems are still evolving. After 6 years of working with ATOS and
over 5 years with SEP, FAA still has a substantial amount of work ahead to refine
and effectively implement its data-driven oversight systems. In reviewing FAA’s
oversight, we identified opportunities for FAA to enhance its ability to perform
safety oversight of an air carrier industry in transition. Specifically:

   9 FAA needs to improve its processes for monitoring and conducting trend
     analyses of air carrier changes and planned inspections. Most network air
     carriers have been making similar changes and there have been marked
     similarities in low-cost carrier growth patterns; however, inspectors did not
     respond to industry changes in a timely and consistent manner. For
     example, all five network air carriers we reviewed had experienced record
     losses and were making similar changes to their operations and
     maintenance systems.           However, inspectors only increased their
     surveillance at the three air carriers in or near bankruptcy.

      Similarly, inspectors for low-cost carriers need to focus on the risks
      associated with the growth in air carrier operations. Inspectors for three of
      the five low-cost carriers we reviewed did not focus on these risks. For
      example, one air carrier increased its fleet size by 56 percent, nearly tripled
      the number of destinations it served, and increased flight operations by
      59 percent between 2000 and 2003. As the air carrier grew, it reduced the
      number of mechanics it employed by 14 percent. However, FAA did not
      identify the increase in flights and reduction in mechanics as risks or
      evaluate the impact this growth and change had on the air carrier’s
      maintenance and operations.

   9 Improvements were needed in key processes used by inspectors to identify
     risks in air carriers’ systems, prioritize inspections, and shift inspections to
     areas of greater risks. Inspectors for the five network air carriers we
     reviewed did not complete 26 percent of their planned inspections during
     FY 2003 when carriers were making significant changes to streamline



                                         iv
   operations and reduce costs. ATOS needs to have a process to prioritize
   inspections so that areas of greater risk are inspected first. As shown in the
   following table, more than half of the inspections not completed were in
   areas of air carriers’ operations where inspectors had identified risks.

      Inspectors Did Not Complete All Planned Inspections of
                Areas Where Risks Were Identified
     FAA Office                              Inspections
                       No.           Total              Number (%) Not
                     Planned      Number (%)         Completed That Were in
                                 Not Completed        Identified Risk Areas
    United              617        259 (42%)              151 (58%)
    Delta               582        234 (40%)               49 (21%)
    American            614        168 (27%)               78 (46%)
    Northwest           834        147 (18%)              108 (74%)
    US Airways          894        130 (15%)             130 (100%)
     Total            3,541        938 (26%)              516 (55%)


   In addition, inspectors found it difficult to adjust their plans when new risks
   were identified and had to depart from ATOS-recommended surveillance to
   gather the data needed to effectively respond to industry changes. For
   example, when a network air carrier closed a major maintenance facility
   and shifted the work to four other facilities, inspectors did not reassess risks
   and change their inspection plan even though they had found significant
   problems at the facility where most of the work was shifted. FAA
   inspectors for three network and two low-cost air carriers we reviewed
   expressed reluctance to identify risks because it would result in more
   inspections than could be completed in a year.

9 Improvements are needed in the interim SEP process to ensure that
  inspectors have the tools and guidance to effectively identify risks, conduct
  their inspections, and ensure risks are mitigated. SEP inspectors still use
  the old compliance-based system to conduct their inspections, and they do
  not have the benefit of dedicated data analysts. As a result, when
  inspectors identified maintenance discrepancies, they did not sufficiently
  focus on determining whether systemic problems existed in air carriers’
  maintenance programs and internal monitoring systems.

9 FAA needs to ensure its inspection workforce is adequately staffed. FAA
  is expecting to lose about 300 aviation safety inspectors this year—233 of
  those positions are expected to come from its Flight Standards office and



                                      v
      67 from its Aircraft Certification office—another area that has been the
      subject of significant concern. While FAA has requested funding to hire
      80 new flight standards inspectors and 17 aircraft certification inspectors
      during FY 2006, those numbers may not be sufficient to ensure that all
      high-risk or emerging issues receive adequate coverage.

      As shown in this chart, the reduction in the Fight Standards office would
      represent a substantial
                                            Number of Aviation Safety Inspectors
      change      from      the
                                                    FY 2001 to FY 2005
      relatively         stable
      number of inspectors            3,500




                                    Inspectors
      the     Agency        has       3,100
      employed over the               2,700
      past 4 years, a period
                                      2,300
      that included our field
                                             2001   2002     2003  2004   2005
      work for this review.
      As     a     point     of                        Fiscal Year

      reference, FAA has
      requested $25 million to hire 1,249 new air traffic controllers during
      FY 2006 (which includes 595 new positions) as it begins implementing its
      plans to hire 12,500 new controllers over the next decade.

      We recognize that FAA is facing an extraordinarily constrained budgetary
      environment, but adequate resources need to be committed to air carrier
      oversight to ensure the continuity of safe operations, particularly as the
      airline industry makes significant and ongoing transitions in their
      operations. Until its ATOS and SEP systems are operating effectively and
      targeting already constrained resources to the areas of greatest risk, FAA
      needs to determine if it can make enough efficiency gains to sustain the
      planned cut of 233 safety inspectors beyond 2005.

Although many of the changes underway in the industry, such as reduced gate
turnaround times, have been a routine part of some air carriers’ operations, they
are new ways of doing business for others. With these changes have come new
stresses in the system and, in some cases, potentially new risks that bear watching.
While there has not been a fatal accident involving a large passenger air carrier in
over 3 years, there have been incidents related to the changes occurring in the
industry that may be precursors to potentially more serious incidents. For
example, pilots and flight crews are flying more hours, and aircraft are being
utilized for more hours a day. When a series of operational incidents occurred at
one network air carrier, FAA inspectors determined that the prolonged
psychological stress and fatigue that pilots had experienced as a result of major




                                                 vi
pay cuts and flying extra hours to make up for the loss of pay were possible
contributing factors.

Also, FAA noted that ground operations incidents were increasing while one air
carrier was in bankruptcy. For example, in October 2003, a ground accident
occurred between two Boeing 777 aircraft operated by this U. S. air carrier and a
foreign air carrier. This highlighted the potential risk to passengers because at the
time of collision, there were 449 passengers on board the two aircraft. Although
no passengers were injured, both aircraft sustained substantial damage when the
airplanes’ right wing tips struck each other. In a more recent incident (May 2005),
four crew members and a ground service agent were injured when a commercial
aircraft operated by another U.S air carrier taxied to the arrival gate and struck the
wing and rear tail sections of another aircraft, causing substantial damage to both
aircraft.

FAA must have well-planned and well-executed oversight of air carriers’
maintenance and operational systems to assure the public that industry changes,
including financial distress and growth, do not compromise safety. The
recommendations made in this report were designed to strengthen FAA’s
oversight and ensure the highest level of safety is maintained as FAA transitions
all air carriers to ATOS.

To improve its oversight systems, FAA needs to:

   9 Strengthen its oversight and monitoring of field offices to ensure that
     inspectors conduct their inspections in a timely and effective manner.

   9 Refine its risk assessment, inspection planning, and data analyses processes
     so they are more comprehensive and flexible.

   9 Ensure that inspectors using SEP have the tools and guidance to effectively
     identify risks, conduct their inspections, and ensure risks are mitigated.

   9 Determine if it can make enough efficiency gains in its operations to sustain
     the planned cut of 233 safety inspectors beyond 2005.

While FAA did not agree with all of our report conclusions, it generally agreed to
implement our recommendations. However, we are requesting that FAA clarify
its planned actions for some of the recommendations, such as modifying inspector
checklists to include questions related to monitoring industry changes. When
implemented, actions promised by FAA should make a safe aviation system even
stronger.




                                         vii
The Changing Aviation Landscape
During the past 4 years, the airline industry has faced a series of major challenges
including a weakened economy, the terrorist attacks of September 11, 2001, the
Severe Acute Respiratory Syndrome epidemic, the war in Iraq, and soaring fuel
prices. As a result, network air carriers suffered monetary losses of $37.2 billion.
Two network air carriers are in bankruptcy and the rest of the network carriers
continue to experience significant financial difficulties. With substantially lower
cost structures, low-cost air carriers continued to grow during 2004 and are
forecasted for more growth. However, the October 2004 bankruptcy filing by one
of the low-cost air carriers shows that these air carriers have also begun to
experience financial pressures.

In response to monetary losses and to compete with low-cost air carriers, network
air carriers are making unprecedented changes to restructure their operations. For
example, the five network air carriers we reviewed:

   9 Retired 664 aircraft from September 2001 through December 2004;

   9 Stored 166 aircraft as of December 31, 2004;

   9 Reduced their personnel by 9,920 pilots and 12,873 mechanics from 2001
     through 2003;

   9 Closed 42 maintenance facilities from 2001 through 2003; and

   9 Established two low-cost airlines within their own corporate structures.

During the same time that network air carriers were reducing their operations,
low-cost air carriers increased their market share of passengers from 17 percent to
22 percent and were able to expand their operations. For example, the five low-
cost air carriers we reviewed:

    9 Hired 1,170 pilots and 384 mechanics from 2000 through 2003, and

    9 Added 228 new aircraft and retired 100 old aircraft between December
      2000 and December 2004.

 These changes have resulted in a significantly different air carrier industry,
 which requires a dynamic oversight process to ensure safety is maintained.




                                        viii
Stronger oversight and monitoring would improve the timeliness and
consistency of FAA actions taken in response to industry changes
Given that air carriers are making similar operational changes, such as reducing
staff and increasing their use of outsourced maintenance providers, FAA needs to
strengthen its national analyses and support functions to ensure inspectors have
sufficient data on the financial health and growth of air carriers and conduct
inspections in a timely and consistent manner. The central groups established to
provide national analyses support and to develop ATOS and SEP policies and
procedures do not have a strong field office monitoring role and do not conduct
continual data analyses to assist field offices. Instead, they provide data and
support primarily upon request from field offices. As a result, actions taken by
inspectors to increase their surveillance tended to be event-based (e.g., declaring
bankruptcy). We found that:

   9 Inspectors need current data to aid in predicting an air carrier’s
     financial health. FAA inspectors for only three of the network air carriers
     we reviewed requested financial data from the analyses group, and those
     inspectors did not make the requests in a timely manner. For example,
     inspectors for one air carrier did not request financial data until November
     2003, well after the air carrier began making changes to respond to
     monetary losses. These changes included reducing personnel, closing
     maintenance facilities, and establishing a low-cost air carrier within its
     corporate structure. The carrier began reducing personnel between August
     and December 2001.

       To compound the problem, the financial data most readily accessible to
       inspectors through its Safety Performance Analysis System was not current
       and accurate. For example, one of the network air carriers in bankruptcy
       was not listed as bankrupt in the system for 6 of the 7 months it was in
       bankruptcy.

   9 Inspectors should be provided with nationwide analyses on risks being
     identified and results of inspections conducted at other air carriers
     making similar changes. Most network carriers have been making similar
     changes and there have been marked similarities in low-cost air carrier
     growth patterns, but FAA did not conduct any nationwide air carrier data
     and trend analyses. This information would have aided inspectors in
     conducting their inspections in a timely and consistent manner.

Because FAA did not provide strong oversight and analyses, inspectors did not
respond to air carriers’ financial distress, growth, and changes in a consistent and
timely manner. For example:




                                         ix
9 FAA responded inconsistently to air carriers’ financial distress and
  growth. All five network air carriers we reviewed had experienced record
  losses and were making similar changes to their operations and
  maintenance systems.         However, inspectors only increased their
  surveillance at the three air carriers in or near bankruptcy. Similarly,
  inspectors did not focus on risks associated with the growth of three of the
  five low-cost air carriers we reviewed. For example, one air carrier
  increased its fleet size by 56 percent, nearly tripled the number of
  destinations it served, and increased flight operations by 59 percent
  between 2000 and 2003. As the air carrier grew, it reduced the number of
  mechanics it employed by 14 percent. However, FAA did not identify the
  increase in flights and reduction in mechanics as risk or evaluate the impact
  this growth and change had on the air carrier’s maintenance and operations.

9 FAA needs to place more emphasis on oversight of outsourced
  maintenance. Of the 10 network and low-cost air carriers we reviewed,
  6 increased the percentage of maintenance expense they outsourced during
  2003. Although inspectors for all five network carriers increased the
  number of inspections planned for outsourced maintenance providers in
  FY 2004, the number of inspections planned ranged from 7 to 32.
  Inspectors planning only seven inspections were responsible for overseeing
  an air carrier that outsourced over 50 percent of its maintenance expense in
  2003.

   FAA has recognized the need to enhance surveillance in this area.
   However, key actions promised in response to our July 2003 report on air
   carriers’ use of repair stations have not yet been implemented. For
   example, FAA is still working to develop a process for identifying trends in
   air carriers’ use of repair stations and a process for determining which
   repair stations carriers are using to perform critical maintenance functions.
   In the interim, FAA began a national special emphasis program in 2004 to
   evaluate air carriers’ oversight of outsourced maintenance. This is a step in
   the right direction, but FAA needs to monitor this program closely to
   ensure it is implemented consistently by inspectors.

9 FAA should focus risk assessments and inspections on changes in
  aircraft utilization. Air carriers are taking a number of steps to increase
  the use and productivity of aircraft, personnel, and facilities. One method
  to increase aircraft utilization is to reduce the time aircraft remain at airport
  gates between flights, commonly referred to as the “gate turnaround time.”
  FAA’s guidance recommends that inspectors monitor this practice to ensure
  that carriers do not allow problems to occur, such as insufficient aircraft
  brake-cooling times or excessive or late maintenance deferrals.




                                       x
          However, FAA inspectors for the air carriers we reviewed did not consider
          short gate turnaround times to be a potential risk and did not adjust
          surveillance to monitor them. We found instances in which air carriers
          with short gate turnaround times did not adhere to required operating
          procedures. For example, at one air carrier, we found errors in four of the
          five weight and balance computations made by pilots. According to air
          carrier personnel, the errors were not discovered because the employee
          responsible for checking the computations did not have sufficient time.

      9 FAA needs to track and analyze results of nighttime inspections.
        Inspectors spent from a low of 1 percent to a high of 7 percent of their total
        work time conducting nighttime inspections. 4 FAA has not focused on
        nighttime inspections even though as much as 90 percent of maintenance is
        performed overnight. In our view, recent industry changes make the need
        to reassess the approach to nighttime surveillance more critical. FAA
        should conduct analyses to determine if there is an elevated risk factor
        associated with nighttime maintenance that needs to be included in future
        ATOS surveillance plans.

      9 FAA should focus risk assessments and inspections on the potential
        risks associated with airport ramp operations. Air carriers have reduced
        the number of ramp personnel and employees have taken on additional
        duties because of the reduction in the number of mechanics. For example,
        one air carrier changed the employee group responsible for receipt and
        dispatch of aircraft at 18 airports from mechanics to ground service agents.
        FAA inspectors at only one of the five network air carriers we reviewed
        were closely tracking changes in ramp operations as a potential risk area.

FAA needs to establish policies and procedures for its national analyses and
support groups to strengthen their assistance to field offices and clarify existing
guidance to ensure that risk assessments of air carrier changes are conducted in a
timely and consistent manner. As part of this process, FAA should perform more
national analyses to identify trends in air carrier changes and inspection findings.


FAA’s risk assessment, inspection planning, and data analyses
processes need to be more comprehensive and flexible
We found problems in key areas of FAA’s inspection program—prioritizing
inspections, adjusting planned inspections, assessing risks, and analyzing data.



4
    These percentages are based on the total time available for the inspectors in our sample because we could not
    determine the amount of time each inspector actually spent on surveillance.




                                                        xi
9 The ATOS system needs to have a process to prioritize inspections so
  that areas of greater risk are completed before lower-risk areas.
  Inspectors for the five network air carriers we reviewed did not complete
  26 percent of their planned inspections during FY 2003 when carriers were
  making significant changes to streamline operations and reduce costs. In
  many cases, FAA managers and principal inspectors cited insufficient
  staffing and budget as reasons for not completing all planned inspections.
  Without a system to prioritize planned inspections, more than half of the
  inspections not completed were in areas of the air carriers’ operations
  where inspectors had identified risks.

   For example, inspectors for one network air carrier that was financially
   distressed did not complete all planned inspections of repairmen
   qualifications in FY 2003, even though potential risks had been identified
   in this area because of turnover in personnel and a reduction in workforce.
   It was not until FAA conducted inspections during the next fiscal year that
   FAA found air carrier inspectors and mechanics at two major maintenance
   facilities had been repairing or inspecting repairs on parts that they were not
   qualified to repair. Once the problem was detected, FAA inspectors
   conducted focused, follow-up inspections in FY 2004. However, this had
   been occurring for at least 10 months before FAA inspectors detected the
   problem.

9 Inspectors found it difficult to adjust their inspection plans if new risks
  were identified during the year. When a network air carrier closed a
  major maintenance facility and shifted the work to four other facilities,
  inspectors did not reassess risks and change their inspection plan even
  though they had found significant problems at the facility where most of the
  work was shifted. In fact, inspectors for only one of the five network air
  carriers we reviewed changed their annual inspection plans during FY 2003
  even though major changes were occurring at all five air carriers. In FY
  2004, inspectors increased their use of the system to change inspection
  plans. However, none of the inspectors followed ATOS procedures to
  reassess air carrier risks when revising their inspection plans.

   ATOS also did not provide a process to override the minimum number if
   new risks were identified. As a result, FAA inspectors for three of the five
   network air carriers we reviewed expressed reluctance to identify risks
   because it would result in more inspections than could be completed in a
   year. Although the SEP system did have a process to override the required
   inspections when new risks were identified, we found inspectors for two
   low-cost air carriers did not follow this process and expressed reluctance to




                                     xii
   identify risks in the fourth quarter because it would result in more
   inspections than could be completed in a year.

9 Although inspectors are increasingly using data in decision-making,
  they continue to rely more on their past knowledge and experience
  rather than data to identify risk areas. Inspector experience and
  knowledge are important, but inspectors also need to evaluate inspection
  and air carrier data when making decisions on areas of risk. ATOS was
  designed to remove some of the subjectivity that could be associated with
  inspectors’ use of their experience and knowledge in identifying risks
  within air carrier systems. For example, inspectors were provided specific
  checklists to use in inspecting air carrier systems and operations. However,
  inspectors did not consider ATOS inspection checklists adequate to gather
  data needed to respond to industry changes.

   To compensate for these weaknesses, inspectors developed supplemental
   checklists. It is commendable that FAA took steps to develop a process to
   monitor potential risks associated with financial distress. However, some
   FAA officials agreed that substantial use of the alternative checklists
   hinders inspectors’ ability to conduct ongoing analysis of risks in air carrier
   systems because the results from the inspections could not be effectively
   combined with data from planned ATOS inspections to identify emerging
   safety trends.

   As a result, the data could not be used for comprehensive analysis of air
   carrier changes. FAA officials claimed that the supplemental checklists
   were just a part of ATOS that were developed to give the system the
   flexibility to respond to special issues like the ones addressed in our report.
   However, we found that inspectors relied heavily on the supplemental
   checklists rather than adjusting their inspection plans through ATOS.

In addition, inspectors did not consistently gather information to track air
carrier changes. For example, even though all five network air carriers we
reviewed reduced personnel, inspectors for only one carrier obtained the
information necessary to assess the effect of staff reductions on air carrier
operations (i.e., which departments the reductions occurred in).

FAA needs to improve data used for risk assessments by updating inspector
guidance materials, including questions on inspector checklists to aid
inspectors in evaluating air carriers undergoing change such as financial
distress and growth. In addition, FAA should require inspectors to obtain
detailed data from air carriers so the inspectors can effectively respond to
changes such as personnel reductions.




                                     xiii
Inspectors using FAA’s interim SEP process did not have the tools
and guidance needed to effectively identify risks, conduct their
inspections, and ensure risks are mitigated
FAA provided inspectors with systems safety training on evaluating air carriers’
systems. However, there are key differences in the manner in which FAA
oversees ATOS versus non-ATOS air carriers.

   9 SEP needs checklists like those used during ATOS inspections. ATOS
     checklists have questions that guide inspectors to evaluate air carrier
     systems rather than using the old process of conducting random inspections
     of air carriers’ compliance with regulations. FAA officials advised us that
     at the beginning of FY 2005, it began providing SEP inspectors with ATOS
     checklists. However, the lack of these inspection checklists hindered SEP
     inspectors’ ability to effectively identify systemic risks at low-cost air
     carriers during a period of significant growth and change.

      For example, at one low-cost air carrier that had increased operations by
      35 percent from 2000 through 2003, we found 23 maintenance
      discrepancies that had not been recorded in aircraft logbooks for two of the
      three aircraft observed at the carrier. The carrier’s subsequent inspection of
      the same two aircraft identified an additional 123 discrepancies. To their
      credit, FAA inspectors identified aircraft airworthiness as a risk area at this
      air carrier, but they did not focus their inspections on determining whether
      a systemic problem existed in the air carrier’s internal maintenance systems
      that allowed these discrepancies to go undetected.

   9 SEP inspectors should clearly document risks found in air carriers’
     maintenance and operations or provide detailed action plans to ensure
     risks are mitigated. Our review of 71 risks documented by inspectors
     found that in 18 instances inspectors did not include descriptive information
     clearly defining risks, in 22 instances did not provide detailed information
     regarding their plans to ensure risks were mitigated, and in 35 instances did
     not document whether risks had been mitigated (i.e., whether air carriers
     had taken sufficient action to correct the condition that prompted inspectors
     to identify a potential risk).

      Until FAA is in a position to move all air carriers to ATOS, the Agency
      should improve the SEP process. FAA plans to complete incorporation of
      ATOS inspection checklists into SEP by the end of FY 2005. FAA must
      ensure that it meets this milestone. In addition, in July 2004, FAA
      implemented new risk tracking procedures to ensure inspectors are
      documenting whether risks have been mitigated. FAA needs to ensure




                                        xiv
       inspectors are following these new procedures and are clearly describing
       risks and action plans in accordance with SEP guidance.

   9 FAA also needs to establish a more definitive plan for transitioning the
     remaining air carriers to ATOS. Only one additional air carrier is
     scheduled to be added to ATOS during the remainder of FY 2005—Trans
     States. FAA’s ATOS Phase II Project Plan, dated October 1, 2002, stated
     that FAA’s goal was to complete transition of all air carriers to ATOS by
     the end of FY 2003. Even though only 15 of the 127 carriers are currently
     under ATOS, FAA’s current ATOS transition plan, dated March 1, 2004,
     does not establish milestone dates for transitioning additional air carriers to
     ATOS beyond FY 2005.

       The plan merely states that conditions may change considerably, (e.g.,
       availability of resources—people and dollars) during the time period for
       transitioning all remaining air carriers to ATOS. In January 2005, FAA
       reported to Congress that the transition will proceed as rapidly as ATOS
       development and resources permit. FAA needs to establish a more
       definitive goal for the number of air carriers that will be added to ATOS
       each year, taking into account its staffing and budgetary resources.



SUMMARY OF RECOMMENDATIONS
Given the magnitude of changes occurring within the aviation industry, FAA must
ensure its oversight systems are working effectively to identify potential risks and
change the focus of inspections to areas that pose the greatest risks. We have
made recommendations to aid FAA in ensuring that the highest level of safety is
maintained during this period of transition in the aviation industry. A detailed list
of these recommendations can be found on page 23. Generally, we are
recommending that FAA:

   9 Establish policies and procedures to ensure the national analyses and
     support groups provide stronger assistance and analytical support to field
     offices.

   9 Conduct an increased number of nighttime inspections to gather sufficient
     data to perform analysis and determine if there is an elevated risk factor
     associated with nighttime maintenance that needs to be included in future
     ATOS surveillance plans.

   9 Improve data used for risk assessment by updating inspector guidance
     materials, including questions on inspector checklists to aid inspectors in



                                         xv
      evaluating air carriers undergoing change, such as financial distress and
      growth, requiring inspectors to obtain data from air carriers so they can
      effectively respond to changes such as personnel reductions, and
      developing a better method of providing financial information either
      through SPAS or from other sources.

   9 Establish a more definitive goal for the number of air carriers that will be
     added to ATOS each year considering the Agency’s staffing and budgetary
     resources.

   9 Determine if it can make enough efficiency gains in its operations to sustain
     the planned cut of 233 safety inspectors beyond 2005.


SUMMARY OF AGENCY COMMENTS                              AND      OFFICE       OF
INSPECTOR GENERAL RESPONSE
On April 11, 2005, FAA provided comments to our draft report. While FAA went
to great lengths to express general disagreement with some of the conclusions in
our report; the Agency generally agreed with our recommendations. Specifically,
FAA agreed or partially agreed to take action to implement all of our
recommendations. When implemented, many of the actions promised by FAA
should make a safe aviation system even stronger and will help ensure limited
inspector resources are used efficiently and effectively. FAA’s full response can
be found in the Appendix on page 36. After FAA provided its response, we added
a recommendation pertaining to inspector staffing. Key actions FAA plans to take
to our draft report recommendations are to:

   9 Develop procedures to strengthen national assistance to field offices and to
     improve field office managers’ oversight of risk assessment and inspection
     planning when air carriers make significant changes.

   9 Develop procedures to ensure inspectors are continually monitoring the
     effect of industry changes, such as financial distress.

   9 Require inspectors to identify the types of maintenance accomplished
     during off-hours and to collect enough inspection data during off-hour
     periods to assess risks.

   9 Monitor implementation of recent changes to the ATOS risk assessment
     process to ensure that ATOS inspections are prioritized so that high-risk
     areas are inspected before lower-risk areas, inspectors are able to
     effectively change inspection plans when new risks are identified, and the




                                       xvi
   frequency and number of planned inspections is commensurate with the
   potential risks identified.

9 Meet the FY 2005 milestone for incorporating the ATOS inspection
  checklists into SEP.

9 Require inspectors to follow SEP procedures to document risks and action
  plans, track risks until corrective action has been taken to mitigate the risks,
  and override required inspections when new risks are identified.

Actions planned by FAA, in some cases, did not meet the intent of our
recommendations. Therefore, we are also requesting that FAA reconsider its
position or provide additional data for these recommendations. Areas covered
by these recommendations include: modifying inspector checklists to include
questions related to monitoring industry changes, providing better financial
information to inspectors, monitoring implementation of recent changes to the
ATOS risk assessment process, requiring inspectors to follow SEP procedures,
and developing more definitive goals for transitioning the remaining air
carriers to ATOS. We are also requesting that FAA provide a response to the
additional recommendation on inspector staffing. Details on the action
required by the Agency can be found on page 29.




                                     xvii
                               TABLE OF CONTENTS


FINDINGS ............................................................................................. 1
    Network and Low-Cost Air Carriers Have Substantially
    Changed Their Operations ................................................................ 1
    FAA is Facing Further Challenges as a Result of an
    Expected Reduction in the Number of Inspectors in
    FY 2005............................................................................................. 3
    Stronger Oversight and Monitoring Would Improve the
    Timeliness and Consistency of FAA Actions Taken in
    Response to Changes in the Industry ............................................... 4
    FAA’s Risk Assessment, Inspection Planning, and Data
    Analyses Processes Need To Be More Comprehensive
    and Flexible To Effectively Respond to Industry
    Changes .......................................................................................... 14
    Inspectors Using the Interim SEP Process Did Not Have
    the Tools and Guidance Needed To Effectively Identify
    Risks, Conduct Inspections, and Ensure Risks Are
    Mitigated.......................................................................................... 22

RECOMMENDATIONS........................................................................ 23

AGENCY COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE....................................................................... 25

ACTION REQUIRED............................................................................ 29

EXHIBIT A. ENTITIES VISITED OR CONTACTED ........................... 31

EXHIBIT B. OBJECTIVES, SCOPE, METHODOLOGY,
AND PRIOR AUDIT COVERAGE........................................................ 33

APPENDIX. AGENCY COMMENTS................................................... 37
                                                                                      1




FINDINGS
During the past 4 years, network air carriers have faced record financial losses and
made unprecedented changes to their operations to regain profitability. While
network air carriers have struggled, low-cost air carriers have continued to grow.
These changes have resulted in a significantly different air carrier industry, which
requires a dynamic oversight process to ensure safety is maintained. The Federal
Aviation Administration (FAA) has made progress in moving to a more risk-
based, data-driven air carrier oversight system designed to respond to the types of
changes occurring in the industry. In addition to its Air Transportation Oversight
System (ATOS), which was introduced 6 years ago and is now used for oversight
of 15 large air carriers, FAA has developed an interim risk-based system, the
Surveillance and Evaluation Program (SEP), for oversight of the remaining
112 commercial air carriers.

However, after 6 years of operational experience with ATOS and phased-in
implementation of SEP, FAA still has a substantial amount of work ahead to
improve its oversight systems, especially given the magnitude of changes air
carriers are making and the pace at which the changes are occurring. Most
network carriers were making similar changes and there were marked similarities
in low-cost air carrier growth patterns, but FAA did not provide strong nationwide
monitoring and trend analyses to ensure that inspectors responded to these changes
in a timely and consistent manner. In addition, the key processes used by
inspectors to identify risks in air carriers’ systems, prioritize their inspections, and
shift their inspections to areas of greater risks were not working effectively. As a
result, inspectors’ ability to effectively respond to industry changes was
diminished.


Network and Low-Cost Air Carriers Have Substantially Changed Their
Operations
Network air carriers have made unprecedented changes to restructure their
operations in response to record-breaking monetary losses. They now outsource
an average of 53 percent of their maintenance expense, as compared to 37 percent
in 1996. In addition, the five network air carriers we reviewed:

   9 Retired 664 aircraft from September 2001 through December 31, 2004;

   9 Stored 166 aircraft as of December 31, 2004;

   9 Reduced their personnel by 9,920 pilots and 12,873 mechanics from 2001
     through 2003;



Findings
                                                                                                                    2


      9 Closed 42 maintenance facilities from 2001 through 2003; and

      9 Established two low-cost airlines within their own corporate structures.

In August 2004, we reported that network air carriers have made some progress in
reducing labor and other costs, but these gains have been partially offset by rapidly
rising fuel costs. 5 All network air carriers posted net losses for 2004.

However, most low-cost air carriers have experienced significant growth and have
expanded their operations. Southwest Airlines, the largest low-cost air carrier, had
more domestic passengers during 2004 than any other U.S. air carrier. The five
low-cost air carriers we reviewed hired 1,170 pilots and 384 mechanics from 2000
through 2003. In addition, from December 2000 through December 2004, they
added 228 new aircraft and retired 100 old aircraft, for a net increase of
128 aircraft. As shown in Table 1, the five low-cost air carriers we reviewed also
increased their average monthly scheduled departures, passenger enplanements,
and available seat miles by over 100 percent since 2000.


       Table 1. Summary of Growth Indicators for Five Low-Cost
               Air Carriers, Average Monthly Operations,
                         2000 Compared to 2004
                Growth Indicator                  2000          2004                           Increase
                                                 Monthly       Monthly
                                               Operations    Operations
                Departures                           18,398        38,156                        107%
                Passengers                        1,834,724     3,810,807                        108%
                Available Seat                2,399,848,000 5,549,873,000                        131%
                Miles*
              *Available seat miles is the number of miles flown between destinations multiplied by the number of
               seats on the aircraft.
               Sources: Air Carrier Financial Reports (Department of Transportation Form 41) submitted to the
               DOT Bureau of Transportation Statistics and the FAA Flight Schedule Data System.

Not all low-cost air carriers are individually growing at the rates shown above, and
one low-cost carrier recently declared bankruptcy. However, the overall growth of
low-cost air carriers is a trend that is projected to continue.




5
    OIG Report Number CC-2004-085, “Airline Industry Metrics: Trends on Demand and Capacity, Aviation System
    Performance, Airline Finances and Service to Small Airports,” August 10, 2004.


Findings
                                                                                3



FAA Is Facing Further Challenges as a Result of an Expected
Reduction in the Number of Inspectors in FY 2005
It is important that FAA have well-planned and well-executed oversight of air
carriers’ maintenance and operational systems to assure the public that industry
changes, including financial distress and growth, do not compromise safety.
Within this context, a significant concern is that FAA is expected to lose about
300 aviation safety inspectors this year—233 of those positions are expected to
come from its Flight Standards office. As shown in Figure 1, that reduction would
represent a substantial change from the relatively stable number of inspectors the
Agency has employed over the past 4 years, a period that included our field work
for this review.



                                   Figure 1. Number of Aviation Safety
                                      Inspectors FY 1995 to FY 2005

                            3500


                            3200
               Inspectors




                            2900


                            2600


                            2300
                                 95

                                 96

                                 97

                                 98

                                 99

                                 00

                                 01

                                 02

                                 03

                                 04

                                 05
                              19

                              19

                              19

                              19

                              19

                              20

                              20

                              20

                              20

                              20

                              20




                                              Fiscal Year




While FAA has requested funding to hire 80 new Flight Standards inspectors
during FY 2006, those numbers may not be sufficient to ensure that all high risk
and emerging issues receive adequate coverage. As a point of reference, FAA has
requested $25 million to hire 1,249 new air traffic controllers during FY 2006
(which includes 595 new positions) as it begins implementing its plans to hire
12,500 new controllers over the next decade. We recognize that FAA is facing an
extraordinarily constrained budgetary environment, but adequate resources need to
be committed to air carrier oversight to ensure the continuity of safe operations,
particularly as the airline industry makes significant and ongoing transitions in
their operations.



Findings
                                                                                   4


Until its ATOS and SEP systems are operating effectively and targeting already
constrained resources to the areas of greatest risk, FAA needs to determine if it
can make enough efficiency gains to sustain a cut of 233 safety inspectors beyond
2005.


Stronger Oversight and Monitoring Would Improve the Timeliness
and Consistency of FAA Actions Taken in Response to Changes in
the Industry
FAA needs to strengthen its oversight and monitoring to ensure inspectors have
sufficient data on the financial health and growth of air carriers and conduct
inspections in a timely and consistent manner when air carriers make changes.
The central groups established to provide national analyses support and develop
ATOS and SEP policies and procedures do not have a strong monitoring role.
Instead of conducting continual data analyses and field office monitoring to ensure
timely and consistent actions, these groups provide data and support primarily
upon request from field offices.

FAA inspectors for only three of the five network air carriers we reviewed
requested financial data from this analyses group, and inspectors did not make
these requests in a timely manner. For example, inspectors for one air carrier did
not request these data until November 2003, well after the air carrier began
making changes because of substantial monetary losses, such as reducing
personnel, closing maintenance facilities, and establishing a low-cost air carrier
within its corporate structure.

To compound the problem, the financial data most readily accessible to inspectors
through the Safety Performance Analysis System (SPAS) was not current and
accurate. For example, SPAS did not accurately reflect the bankruptcy status of
two network air carriers and one low-cost air carrier. One of the network air
carriers was not listed as bankrupt in the system for 6 of the 7 months it was in
bankruptcy. SPAS showed the low-cost carrier as bankrupt 9 months before it
actually filed for bankruptcy protection. Therefore, inspectors could not use SPAS
to help predict air carriers’ financial health. As a result, actions taken by
inspectors to increase their surveillance tended to be event-based
(e.g., declarations of bankruptcy). FAA needs to develop a better method of
providing financial information either through SPAS or from other sources.

FAA has an ATOS operations research analyst in each of the ATOS offices.
Although these analysts have improved FAA inspectors’ abilities to identify areas
of risk, we found inconsistencies in the analysis of data by the analysts and the use
of those data by FAA inspectors. For example, inspectors at one office routinely
asked their data analyst to provide them information. Inspectors in this office


Findings
                                                                                                                      5


were even using the analyst to review reliability data submitted by the air carrier to
justify maintenance interval extensions. However, inspectors for another air
carrier told us they have not found their analyst useful.


FAA Responded Inconsistently to Air Carriers’ Financial Distress and
Growth
FAA inspectors significantly increased their surveillance of the three network air
carriers in or near bankruptcy. However, they waited until those air carriers were
in or near bankruptcy to increase and focus their surveillance on areas that could
be affected by financial distress. For example, inspectors for the three air carriers
increased the number of inspections of mechanics’ training and experience
because of the significant shifting of personnel to different facilities and aircraft as
a result of layoffs and facility closures.

In addition, inspectors for the three air carriers in or near bankruptcy had to depart
from ATOS-recommended surveillance to effectively monitor financially
distressed air carriers. Special checklists had to be developed to conduct
inspections of issues related to financial distress that were not specifically covered
by existing ATOS elements. Inspectors stated that they relied upon these
unplanned inspections because the regular ATOS checklists were not
comprehensive enough and the ATOS system was not flexible or easy to use.

However, as shown in Figure 2, 6 FAA did not take similar action to increase its
surveillance for the other
two network air carriers.          Figure 2. Number of Inspections Outside
FAA inspectors did not                  of Planned ATOS Surveillance*
consider those two carriers      A
                                                Not Considered
                                              Air Carriers




to be financially distressed     B              Financially Distressed

even though they had             C
experienced record losses                                                Financially
                                 D                                       Distressed
of $4.2 billion from 2001
                                 E
through 2003 and were
restructuring           their       0         500           1000       1500          2000
operations     to    remain
                                               Number of Inspections
competitive.
                                           * The period covered for bankrupt air carriers is the three quarters after
                                             bankruptcy was declared (8/02 and 12/02), and for the other carriers it
                                             was the first three quarters of FY 2003.



6
    Figure 2 data are compiled from Constructed Dynamic Observation Reports (ConDOR), Dynamic Observation
    Reports (DOR), and inspections of aircraft at the gate, referred to as ramp checks, recorded in the Program Tracking
    and Reporting SubSystem. Inspectors primarily used these unplanned inspections to increase their surveillance in
    response to financial distress instead of relying on regularly planned ATOS inspections.


Findings
                                                                                     6


Similarly, FAA responded inconsistently to low-cost air carrier growth. The five
low-cost air carriers we reviewed had increased operations by 76 percent, almost
doubled the number of passengers they carried, and increased their fleet size by
50 percent from 2000 through 2003. FAA inspectors for three of the five low-cost
air carriers we reviewed did not obtain growth plans or effectively monitor
potential risks in these areas. Although air carrier growth is not inherently unsafe
if carefully managed by air carriers, FAA inspectors should closely monitor it.
While there is no specific regulatory requirement for an air carrier to submit a
growth plan, FAA’s guidance for inspectors to monitor air carrier growth and
change recommends that inspectors obtain growth plans to determine whether air
carriers have maintenance personnel, contracts, facilities, equipment, and training
in place before any air carrier changes have taken place.

For example, in 2002, one air carrier we reviewed increased its aircraft fleet size
28 percent, from 29 to 37 aircraft, but FAA did not evaluate the impact this change
had on the air carrier’s operations and maintenance. Even though FAA’s guidance
instructs inspectors to consider increases in fleet size of 10 to 15 percent per year
as high, inspectors for this air carrier did not focus their inspections on this growth
because they considered the aircraft additions to be steady growth. Also, in the
next year, the carrier reduced the size of its maintenance staff by 44 mechanics (14
percent), even though it continued to add new and more complex aircraft to its
fleet. Although the reduction in mechanics may have been appropriate given that
new aircraft might not require as much maintenance as older aircraft, inspectors
did not evaluate whether the air carrier retained a sufficient number of trained
mechanics to properly maintain its fleet.

We found several problems at this air carrier’s maintenance facility, such as
mechanics signing off on maintenance testing and tagging procedures that had not
been performed and not following prescribed instructions while performing
maintenance. In addition, we found numerous aircraft fasteners and bolts that
were not traceable to their original manufacturing batch and items that had an
expired shelf life but were still available for use. While these deficiencies were
not safety of flight issues, they were indicators that both the air carrier and FAA
need to be more vigilant in their oversight processes.

In addition to its ATOS and SEP policies and procedures, FAA has supplemental
guidance for monitoring air carrier financial distress, growth, and change.
However, the guidance added further confusion because it did not clarify when
inspectors should adjust their surveillance. The guidance on financial distress
provided items (e.g., increases in repeat maintenance discrepancies) inspectors
should monitor as indicators of financial distress. The guidance was not clear as
to when inspectors should begin monitoring these indicators and did not instruct
them to adjust surveillance until air carriers declared bankruptcy.


Findings
                                                                                                                       7


Similarly, the guidance for monitoring air carrier growth listed the expansion of an
air carrier’s route structure as a growth indicator but did not specify how many
new routes would represent a rate of growth that should be evaluated. As a result,
inspectors primarily focused on growth in fleet sizes and did not adequately
consider risks associated with substantial increases in the five low-cost carriers’
flight operations and destinations.


FAA Needs To Place More Emphasis on Oversight of Outsourced
Maintenance
We reported in July 2003 7 that by the end of 2002, nine ATOS air carriers were
outsourcing 47 percent of their aircraft maintenance expense. We recommended
that FAA change its approach to oversight of repair stations. FAA agreed to
implement our recommendations; however, proposed changes are still underway.
Since that time, we found that maintenance outsourcing has increased to
53 percent as of September 2004 for these same air carriers. We also did a similar
analysis that included the five low-cost air carriers we reviewed. As shown in
Table 2, 9 of the 14 air carriers had increased their percentage of outsourced
maintenance expense as of September 2004 as compared to 2002, four either
stayed the same or slightly decreased their percentage of outsourced maintenance
expense, and results were inconclusive for one because Department of
Transportation (DOT) Form 41 data were not available for 2002. 8




7
    OIG Report Number AV-2003-047, “Review of Air Carriers’ Use of Aircraft Repair Stations,” July 8, 2003.
8
    Spirit Airlines reported to the Bureau of Transportation Statistics that 34 percent of its maintenance cost was
    outsourced in the fourth quarter of 2003. We determined from a senior official at Spirit Airlines that 34 percent was
    representative of the amount of maintenance outsourced by this air carrier for 2003 and prior years. However, we
    could not verify this with data from the carrier’s DOT Form 41 submission.


Findings
                                                                                                                   8




Table 2. Percent of Outsourcing for 14 Air Carriers in 2002, 2003,
             and the First Three Quarters of 2004*
      Air Carrier                  Percent of Maintenance Expense Outsourced
                                 2002         2003       2004**       Change
                                                                   (2002 to 2004)
    Jet Blue                     39%          51%         63%           24%
    United                       33%          41%         54%           21%
    ATA                          22%          20%         43%           21%
    Air Tran                     31%          46%         46%           15%
    Frontier                     20%          27%         33%           13%
    US Airways                   50%          58%         60%           10%
    Northwest                    44%          56%         51%            7%
    American                     38%          38%         42%            4%
    Alaska                       79%          75%         80%            1%
    Continental                  65%          65%         65%            0%
    Southwest                    65%          65%         64%           (1%)
    Delta                        38%          37%         35%           (3%)
    America West                 77%          75%         72%           (5%)
    Spirit                        Not       34%***        30%         Unknown
                               available
*   To determine outsourced maintenance percentages, we compared the amount of direct maintenance expense air
    carriers incurred for outside repairs to the amount the carriers incurred for total direct maintenance expense as
    shown on Form 41 financial data that air carriers submit to the Department’s Bureau of Transportation Statistics.
    This is the best source currently available for data on air carrier outsourcing.
** First three quarters only
*** Percent for Spirit Airlines based on FY 2003 fourth quarter data only.
Source: DOT Form 41 data

Although inspectors for all five network air carriers we reviewed increased the
number of inspections planned for outsourced maintenance providers in FY 2004,
the number of planned inspections varied widely. For example, FAA inspectors
for one air carrier planned 32 inspections of carriers’ management and oversight of
outsourced maintenance programs, while inspectors for another carrier planned
only 7. The inspectors planning only seven are responsible for overseeing an air
carrier that outsourced over 50 percent of its maintenance expense in 2003 and
plans to outsource more work in the future. However, inspectors for this air
carrier conducted 98 percent of their inspections of the air carrier’s in-house
maintenance.

Also, FAA has found problems with this carrier’s oversight of outsourced
maintenance providers. For example, in March 2004, a pilot for this air carrier
declared an in-flight emergency on an aircraft for which an outsourced


Findings
                                                                                  9


maintenance provider had just completed a maintenance check. FAA determined
that the outsourced maintenance provider had improperly tightened a moisture
drain cap, causing erroneous readings on flight critical instruments, such as the
airspeed indicating system. Although the pilot was able to return to the departure
airport without further problems, a failure in these systems could cause aircraft
accidents during take off and landing. An FAA inspector investigating the
incident concluded that it appeared there was a lack of air carrier oversight of the
outsourced maintenance provider.

We also found a wide range in the number of FAA inspections planned in
FY 2004 of outsourced maintenance providers for the low-cost air carriers. For
example, FAA inspectors for one air carrier planned to conduct only nine
inspections of outsourced maintenance providers even though this air carrier
outsourced over 40 percent of its maintenance expense in 2003. In comparison,
inspectors for another air carrier planned 25 contract maintenance inspections for
an air carrier that outsourced less than 30 percent of its maintenance expense.
While we acknowledge that there could be different factors that influence the
number of inspections, the lack of correlation between inspections and outsourced
maintenance providers raises questions as to whether FAA’s inspection planning
adequately considered the carriers’ actual maintenance practices.

The FAA inspectors planning only nine inspections had never visited a new
contract facility that performs heavy maintenance for this air carrier. During our
visit to this air carrier, one aircraft that had recently returned from this
maintenance facility had a baseball-sized asphalt rock embedded in one of its
wheels and cleaning fluid covering the landing gear that, according to the FAA
inspector, could have masked a leak.

FAA has recognized the need to enhance surveillance in this area. However,
actions in response to key recommendations in our July 2003 report on air
carriers’ use of repair stations, such as determining trends in air carriers’ use of
repair stations and developing a process to find out which repair stations the
carriers are using to perform maintenance, have not yet been implemented by
FAA. In the interim, FAA began a national special emphasis program in 2004 to
evaluate air carriers’ oversight of outsourced maintenance. This is a step in the
right direction, but FAA needs to monitor this program closely to ensure it is
implemented consistently by inspectors.


FAA Should Focus Risk Assessments and Inspections on Changes in
Aircraft Utilization
To lower their unit costs, air carriers are taking a number of steps to increase the
utilization and productivity of aircraft, personnel, and facilities. For example, by


Findings
                                                                                   10


operating with shorter gate turnaround times and operating more hours per day,
low-cost air carriers have achieved aircraft utilization rates that are about
16 percent higher than those of network air carriers. Both Delta and United have
established low-cost operations, called Song and Ted respectively, within their
corporate structure that use several of these techniques to improve efficiency and
offer lower ticket prices. Even though Song and Ted’s operations differ from the
network air carriers’ operations, FAA does not provide separate risk analyses and
oversight for these low-cost operations. FAA officials stated that they did not
have concerns with Song and Ted operations because any negative trends would
appear in overall statistics for Delta and United.

FAA’s guidance recommends that inspectors monitor operating practices such as
short gate turnaround times because some air carriers may not adhere to safe
operating procedures, such as insufficient aircraft brake-cooling times or excessive
or late maintenance deferrals. FAA inspectors for the five low-cost air carriers we
reviewed and the two network air carriers that had started low-cost operations did
not consider short gate turnaround times as a potential risk and did not adjust
surveillance to monitor this operating procedure. Although improving airport gate
turnaround times is a good business practice, we found instances in which air
carriers operating with short gate turnaround times did not adhere to required
operating procedures.

For example, we reviewed the weight and balance computations at one low-cost
air carrier and found errors in four of the five computations made by pilots.
According to air carrier personnel, the errors were not discovered because the
responsible employee did not have time to check the computations. Although the
errors we found were not significant enough to affect the safe operation of the
aircraft, calculation of weight and balance is a critical safety procedure that if
calculated incorrectly can lead to accidents.

In addition, during observations of three aircraft at another low-cost air carrier, we
identified 16 maintenance discrepancies that were not recorded on the aircraft’s
maintenance logbooks. On one aircraft, the wires for the emergency escape
lighting were exposed in three rows of the aircraft. The FAA inspector required
the air carrier to complete the repair before the aircraft’s next flight. Although we
could not determine why the air carrier had not recorded these maintenance
discrepancies, the lack of logbook entries could be an indicator that the carrier
may be waiting until the last flight of the day to record discrepancies. FAA’s
guidance points out that late maintenance deferrals are a problem that may stem
from an air carriers’ attempt to reduce gate turnaround times.




Findings
                                                                                                             11


FAA Needs to Track and Analyze Results of Nighttime Inspections
The network air carriers we reviewed reduced their mechanic workforce by nearly
13,000 and closed 42 maintenance facilities. Also, to keep costs low, network and
low-cost air carriers use their aircraft for more hours during the day, limiting the
amount of time maintenance can be accomplished. However, even though a
significant amount of maintenance is performed overnight—as much as 90 percent
at some locations—we found that inspectors spent an average of only 3 percent of
their time conducting inspections at night. As shown in Table 3, the amount of
nighttime surveillance ranged from a low of 1 percent to a high of 7 percent for the
10 air carriers we reviewed.


      Table 3. Percent of Inspectors’ Time Spent Performing
       Inspections of Air Carriers’ Nighttime Maintenance—
                    Second Quarter, FY 2003
           FAA Office           Nighttime                  Total                     Percent at
                                Inspection               Inspection                    Night
                                 Hours*                   Hours*
        AirTran                     29                      3,294                         1%
        American                    29                      2,171                         1%
        ATA                         40                      1,802                         2%
        Delta                       94                      3,924                         2%
        Frontier                   210                      3,027                         7%
        Jet Blue                     8                      1,735                         0.5%
        Northwest                   46                      2,975                         2%
        Spirit                      25                      1,313                         2%
        United                     127                      3,415                         4%
        US Airways                 108                      3,035                         4%
         Total                     716                     26,691                         3%
      * FAA nighttime and total inspection hours for the five network air carriers are based on inspection
        data for a random sample of 37 maintenance inspectors. For the five low-cost air carriers, the
        hours represent all maintenance inspectors assigned to these carriers.


FAA disagreed with our conclusions because our calculations are based on the
total available time rather than the amount of time inspectors spent conducting
surveillance. However, FAA has no method to accurately determine the actual
number of hours spent on surveillance. Regardless of the methodology used to
report the amount of surveillance conducted at night, we found that it varied
significantly from office to office, and FAA did not track and analyze the results
from nighttime inspections to determine if there was an elevated risk factor at
night. Therefore, FAA does not have the data necessary to determine whether
there is a greater risk at night that would warrant increased scrutiny.


Findings
                                                                                                                        12


In our view, the risk is potentially greater now given the significant changes that
are occurring in the industry, coupled with the amount of maintenance that is
conducted overnight. We are not suggesting that FAA should revert to the old
“kick the tires” approach. However, to ensure the system is working effectively,
ATOS requires inspectors to test whether the air carrier system controls are
working (e.g., mechanics are following established procedures). In our opinion, a
more effective way of testing to see if the system’s controls are working would be
to focus FAA maintenance inspections on times when maintenance is actually
being performed, rather than reviewing the aircraft’s paperwork the next morning,
to determine if there is an elevated risk factor that needs to be included in future
ATOS plans.

Air carrier personnel told us that FAA inspectors rarely conduct their surveillance
at night. Senior maintenance officials at one of these air carriers expressed
concern that FAA inspectors were not even available for meetings after 1:30 p.m.
and conducted very little surveillance after this time. At another air carrier, a
senior maintenance official stated that FAA inspectors do not visit the
maintenance facility until 5:00 a.m. or 6:00 a.m., after all nighttime maintenance
has been completed. During our visit at this facility from 10:00 p.m. to 2:00 a.m.,
a mechanic approached us and expressed concern that a contractor who was
waxing the aircraft was not covering the aircraft’s static port. The static port
allows flight critical instruments to provide readings for airspeed and altitude. By
not covering the static port, wax could enter it and cause inaccurate instrument
readings. When we informed FAA inspectors about this problem, they told us that
this could present a serious problem.

This incident illustrates the importance of FAA conducting its inspections at night
when maintenance is being performed to ensure that the air carrier has adequate
procedures, controls, and supervision in place to prevent such problems. FAA
needs to conduct an increased number of nighttime inspections to gather sufficient
data for analysis to determine if there is an elevated risk factor that needs to be
included in future ATOS surveillance plans.


FAA Should Focus Risk Assessments and Inspections on the Potential
Risks Associated with Airport Ramp Operations
Even though air carriers have changed their operations in the airport ramp area, 9
FAA inspectors at only one of the five network air carriers we reviewed were
closely tracking this as a potential risk area. Air carriers have reduced the number
of ramp personnel and employees have taken on additional duties because of the

9
    The ramp area is the site of activities that are involved in turning the aircraft around, such as marshalling, loading or
    unloading passengers and cargo, refueling, aircraft towing, and pushback/powerback.




Findings
                                                                                  13


reduction in the number of mechanics. For example, one air carrier changed the
employee group responsible for receipt and dispatch of aircraft at 18 airports from
mechanics to ground service agents. In addition, air carriers are striving to turn
aircraft around faster at the gate, thus increasing the potential for accidents and
incidents.

In past years, ground accidents and incidents have caused injuries to ground
personnel, passengers and crewmembers, and have resulted in substantial damages
to aircraft and costs to the airlines. FAA estimated the current cost to the airlines
is at least $2 billion a year. A fatal incident that occurred in September 2003 when
a vehicle used to tow aircraft struck a Northwest Airlines aircraft in Norfolk,
Virginia, during passenger boarding highlights the potential risk to ground
personnel. Although the aircraft received only minor damage, the tug operator
was killed. The National Transportation Safety Board (NTSB) cited the probable
cause for this accident as the use of improper equipment. However, the air carrier
also determined that its procedures should be changed to make this a two-person
operation rather than the one-person operation it had been.

Another ground incident that occurred in October 2003 highlights the potential
risk to passengers and costs to the airlines. A United Airlines Boeing 777 aircraft
collided on the ground with an All Nippon Airlines aircraft. At the time of the
collision, the United Airlines aircraft was pushing back from the gate and the All
Nippon Airlines aircraft was taxiing to the gate. There were 449 passengers on
board the two aircraft when the collision occurred. Although no passengers were
injured, both aircraft sustained substantial damage when the right wing tips of the
two airplanes collided. According to FAA inspectors, the damage to the United
Airlines aircraft was over $1 million.

According to statistics compiled by FAA’s Office of Accident Investigation, an
average of three accidents and incidents per month occurred in 2002. Information
obtained from air carriers shows that the number of incidents is even higher than
what is reported in the NTSB and FAA accident and incident data bases. NTSB
and FAA databases only consider incidents occurring during the time when
passengers are enplaned for flight, whereas carriers and insurers collect data on all
losses such as those to aircraft that are parked, those that are damaged on the
ground by inclement weather, and those that are being moved by mechanics or
tugs during maintenance. One of the air carriers in our review had 1,401 incidents
that resulted in aircraft damages of $280 million during 2002. As a result, FAA
inspectors closely monitored this area as a risk during 2003. Air carriers
continued to have problems in this area in 2003. For example, an air carrier we
reviewed had 62 ramp incidents from January to July 2003, an average of about
8 to 9 incidents per month. FAA needs to ensure inspectors are obtaining data on
aircraft ground damages and focusing analyses on FAA inspection results. If


Findings
                                                                                                                       14


necessary, inspectors should adjust their surveillance to focus on this safety
concern.

In summary, FAA needs to take a number of actions to ensure inspections of air
carrier changes are conducted in a timely and consistent manner. FAA needs to
establish policies and procedures to ensure the national analyses and support
groups provide stronger assistance to field offices. In addition, FAA should
require field office managers to ensure inspectors assess risks and adjust their
surveillance plans, if necessary, when air carriers make significant changes to their
operations and maintenance programs, such as closing maintenance facilities,
reducing personnel, outsourcing maintenance, and reducing gate turnaround times.
Further, FAA needs to clarify and expand inspector guidance to: (1) ensure
inspectors do not wait until bankruptcy to begin monitoring data related to
financial distress and adjusting their surveillance; (2) emphasize the importance of
obtaining and continually monitoring detailed data for carriers experiencing
financial distress, growth, and other changes; and (3) provide specific indicators of
problems in air carriers’ resources and performance that would require close
monitoring.


FAA’s Risk Assessment, Inspection Planning, and Data Analyses
Processes Need To Be More Comprehensive and Flexible To
Effectively Respond to Industry Changes
The changes network air carriers are making and the operational practices of low-
cost air carriers make sound business sense and are not inherently unsafe.
However, the changes have created new potential risks that warrant close scrutiny
by FAA. FAA has made progress in improving ATOS, but the tools and processes
need further refinement. For example, ATOS did not have a process that
prioritized inspections so that areas of greater risk received higher priority. 10 As a
result, more than half of the inspections not completed in FY 2003 when air
carriers were making significant changes to streamline operations and reduce costs
were in areas that were identified as being at risk. In addition, inspectors for the
three air carriers in or near bankruptcy had to significantly depart from ATOS-
recommended surveillance to effectively monitor financially distressed air
carriers.




10
     Although ATOS had a priority system used to determine which inspections were to be conducted to determine if the
     air carrier had adequate system controls (Safety Attribute Inspections), it did not have a similar priority system for
     critical inspections conducted to determine whether the controls were working effectively (Element Performance
     Inspections).


Findings
                                                                                                            15


The ATOS System Needs a Process to Prioritize Inspections so That
Areas of Greater Risk Are Completed Before Lower-Risk Areas
In FY 2003 when air carriers were making significant changes to streamline
operations and reduce costs, inspectors for five network air carriers we reviewed
did not complete 26 percent of their planned inspections. Of the inspections not
completed, 55 percent were in areas of the air carrier’s operation that were
identified as being at risk (see Table 4).


Table 4. Inspectors Did Not Complete All Planned Inspections of
         Areas Where Risks Were Identified in FY 2003*
    FAA Office                No.               Total                 Number (%) of Inspections
                            Planned          Number (%)               Not Completed That Were
                                            Not Completed              in Identified Risk Areas
 United                         617           259 (42%)                       151 (58%)
 Delta                          582           234 (40%)                        49 (21%)
 American                       614           168 (27%)                        78 (46%)
 Northwest                      834           147 (18%)                       108 (74%)
 US Airways                     894           130 (15%)                      130 (100%)
  Total                       3,541           938 (26%)                       516 (55%)
 * Table 4 represents planned inspections and does not include unplanned surveillance conducted by inspectors
   and reported through Dynamic Observation Reports (DOR) and Constructed Dynamic Observation Reports
   (ConDOR).

For one air carrier, inspectors did not complete a significant portion of their plan
in FY 2003 and FY 2004 even though the air carrier was designated by FAA as
financially distressed. This air carrier experienced an increase in serious incidents
during 2003. For example, a crew landed an aircraft on the wrong runway, and
another crew on a transcontinental flight experienced a fuel leak that it failed to
recognize until an engine flamed out. FAA inspectors responded to these
incidents by developing a risk management action plan in accordance with the
ATOS process guidelines and documented that the prolonged psychological stress
and fatigue that pilots had experienced as a result of major pay cuts and flying
extra hours to make up for the loss of pay were possible contributing factors.
Even though operations inspectors responded to this increase in incidents, they
only completed 29 percent of their ATOS inspections for this air carrier in
FY 2004.

At another network air carrier, FAA inspectors identified potential risks in the area
of repairmen qualifications because of turnover in personnel and a reduction in
workforce but did not complete all planned inspections in FY 2003. It was not
until FAA conducted inspections during the next fiscal year that FAA found that


Findings
                                                                                                             16


air carrier inspectors and mechanics at two major maintenance facilities were
reviewing and approving repairs to parts and instruments that they were not
qualified to repair. In two instances, employees had been returning parts to
service without the proper certification for 10 months since February 2003. FAA
inspectors had visited these maintenance facilities 12 times 11 during FY 2003 to
conduct inspections of repairmen qualifications but did not detect this problem.
To FAA’s credit, in response to their findings in FY 2004, inspectors conducted
investigations, ensured the air carrier took corrective actions, and planned to
conduct follow-up inspections. However, nearly a year passed in which
unauthorized air carrier personnel performed repairs and returned aircraft
instruments and components to service before FAA inspectors found the
discrepancies.

The three primary reasons FAA managers and principal inspectors gave for not
completing all planned inspections were sufficient staffing was not available; the
continuing budget resolution prevented inspectors from traveling in the first and
second quarters of FY 2003; and the complexity of one air carrier changed, thus
reducing the number of inspections needed. Other reasons included some
inspections were never assigned, were started but not finished, and were
inappropriately written off as “not applicable” to the air carrier. Although FAA
has established a procedure within ATOS for FAA inspectors to obtain additional
resources to conduct inspections, FAA inspectors for the five network air carriers
we reviewed did not follow these procedures. In addition, although inspectors for
one air carrier stated the continuing budget resolution prevented them from
traveling to conduct inspections, FAA Headquarters management advised field
offices during the first quarter of 2003 to restrict administrative but not operational
travel.




11
     Under ATOS, FAA inspectors normally conduct more than one activity to complete an inspection. Inspectors for
     this air carrier visited the facility 12 times to complete the 5 inspections performed during FY 2003.


Findings
                                                                                17


FAA inspectors did not take aggressive steps to ensure key inspections were
completed. For example, as shown in Figure 3, inspectors for one air carrier did
not complete all planned
inspections in critical              Figure 3. Examples of Higher-Priority
                                Inspections Not Completed and Lower-Priority
areas, such as air carrier
                                 Inspections Completed By Inspectors for One
required inspection items                              Air Carrier
(i.e., significant main-
tenance tasks that must be Higher-Priority Inspections Lower-Priority Inspections
observed by air carrier Not Completed                        Completed
inspection       personnel),   Maintenance  program          Management Information
while        accomplishing Deferred maintenance                System reports
                               Required inspection items     Display of certificate
inspections in lower- Parts/material control                 Aircraft listing
priority areas, such as Continuing Analysis and
Management Information          Surveillance System
System reports, in which       Outsource organizations
inspectors review whether
air carriers are following proper procedures when reporting maintenance
information. When inspectors determined that they could not complete all planned
inspections, they did not adjust their surveillance plans to ensure inspections of
higher-risk areas were completed. FAA inspectors identified this as a risk again in
FY 2004 because they only completed half of the planned inspections of the air
carriers’ required inspection program during FY 2003.


Inspectors Were Reluctant To Identify Risks Because of the Requirement
To Conduct a Minimum Number of Inspections
The ATOS tool used to assess the air carrier and plan inspections requires that
inspectors conduct a minimum number of inspections regardless of risks
identified. However, inspectors advised us that the automated tool generates more
inspections than they can accomplish in a year. Inspectors told us, and we
observed at annual inspection planning meetings, that inspectors were reluctant to
identify known risks within air carrier operations because they knew identification
of such risks would generate requirements to complete more inspections.

We also found SEP inspectors were reluctant to identify risks because of a
requirement to complete a minimum number of inspections. In addition to
completing inspections planned using the SEP risk analyses process, inspectors
also must complete required inspections assigned by FAA Headquarters.
Although the SEP system did have a process to override the required inspections
when new risks were identified, we found inspectors for two low-cost air carriers
did not follow this process and were reluctant to identify risks during the fourth
quarter because to do so would generate additional inspections that they might not
be able to complete before the end of the fiscal year.


Findings
                                                                                    18


Inspectors Were Not Routinely Using the Process in ATOS To Change
Their Inspections During the Year in Response to Changing Risks
We found that inspectors for only one of the five air carriers in our review
changed their annual inspection plans through ATOS during FY 2003 in spite of
the fact that major changes were occurring at all five network air carriers. For
example, when a network air carrier closed a major maintenance facility, reduced
the number of mechanics by 41 percent, and moved this work to four other
facilities, inspectors did not reassess risks and change their inspection plan even
though inspectors initially found significant problems at the facility where most of
the work was shifted. Inspectors found serviceable and unserviceable parts from
the main landing gear mixed together and numerous parts with no tags to indicate
whether they were serviceable or unserviceable. In this situation, mechanics could
have used defective parts to make repairs.

According to FAA guidance, relocating or closing a facility can significantly
affect an air carrier’s safety and the potential for failure in their systems. In
addition, when there are significant workforce reductions or layoffs, mechanics
need to be retrained or cross-trained to perform new functions.

FAA inspectors for this air carrier told us they did not identify the facility closure
as a risk and did not adjust their surveillance because the air carrier closed the
facility after inspectors had developed their annual inspection plan. Although
ATOS has a process, referred to as “retargeting,” that permits inspectors to change
their inspection plan during the year, inspectors for this air carrier told us they did
not use it because the retargeting process is not flexible or easy to use.

In FY 2004, inspectors increased their use of the system to change inspection
plans. However, even though inspectors for all five network air carriers changed
their inspection plans at least once during FY 2004, none of them followed ATOS
procedures to reassess air carrier risks when revising their inspection plans.
According to FAA, changes to ATOS released in October 2004 increased the
flexibility of the system and made it easier for principal inspectors to initiate
changes or retarget the surveillance plan. FAA needs to closely monitor the
implementation of these changes to ensure inspectors are able to effectively
change inspection plans when new risks are identified.


Inspectors Need to Effectively Use the Automated Tool to Assess Risks
and Adjust Their Inspections to Changes Air Carriers Were Making
The automated process designed to assist inspectors in focusing their inspections
on areas of higher risk did not produce a surveillance plan commensurate with
potential risks identified. The tool can actually recommend reducing or keeping
the baseline number of inspections planned even when risks are identified. As a


Findings
                                                                                   19


result, for all five network air carriers we reviewed, inspectors either did not
change the number of inspections or planned a lower number of inspections in
48 percent of the areas where risks were identified during FY 2003 and FY 2004.

For example, at a network air carrier that was experiencing substantial monetary
losses, FAA maintenance inspectors identified potential risks in 11 areas
(e.g., aircraft airworthiness) because of air carrier changes such as a reduction in
workforce, shifting of maintenance to new locations, and turnover in personnel.
However, the ATOS automated process recommended either reducing or keeping
the baseline number of inspections for all 11 areas where maintenance inspectors
identified risks. Although inspectors can add inspections, they planned to conduct
fewer than or the same number of baseline inspections for 10 of the 11 areas. As a
result, for this air carrier there was no difference in the number of inspections
planned for areas where risks were identified and areas where no risks were
identified.

FAA officials stated that the system was designed with the assumption that an
inherent level of risk existed in air carriers’ operating environment, so if risks
identified by inspectors did not go above this inherent level, the recommended
frequency or number of inspections was either reduced or not changed. However,
the formulas in ATOS were not sophisticated enough to weigh the importance of
risk indicators. For example, when recommending the frequency of inspections,
the system treated potential risks identified as a result of increased accidents and
incidents the same as risks identified because of turnover in personnel.

Another problem with the automated tool is that for a highly critical inspection
area, such as aircraft airworthiness, the risk assessment tool recommends that FAA
inspectors perform only one more than the baseline number of inspections for any
risk level that is determined to be between 16 and 100 percent. ATOS guidance
does not specify what risk level is high enough to increase the number of
inspections. For example, FAA inspectors for one air carrier in bankruptcy
assigned a 58 percent risk level to aircraft airworthiness because of potential risks,
such as changes in air carrier management, turnover in personnel, reduction of
workforce, and accidents and incidents and only a 16 percent risk level to the air
carrier’s program for borrowing aircraft parts from other carriers. The risk
assessment tool recommended inspectors perform the same number of inspections
(nine) for each of these areas despite the wide variance in risk levels assigned.

Inspectors can manually change the number of inspections planned. However,
decisions for increasing the number of inspections planned were not based on data
and risks identified. For example, in FY 2004, inspectors for one air carrier that
outsourced over 50 percent of its maintenance expense assigned a risk level of
23 percent to outsourcing because of changes, such as turnover in personnel,
enforcement actions, and air carrier self-disclosures, and 6 percent to the minimum

Findings
                                                                                                                   20


equipment list. 12 Yet, inspectors planned only 7 inspections of outsourcing but
planned 63 inspections of the minimum equipment list.

In October 2004, FAA released a change to the automated process used in ATOS
to assess risks and plan inspections. The system will no longer recommend
reducing the frequency of inspections for areas where risks have been identified.
In addition, according to FAA, revised policies and procedures provide stronger
guidance with regard to prioritizing inspections based on risk. However, no
controls have been put in place to ensure the frequency of inspections planned is
commensurate with potential risks identified. As illustrated in the example in the
previous paragraph, when inspectors manually determined the amount of
surveillance, the number of inspections planned did not consistently correlate with
risk levels identified. In addition, each of the risk indicators continues to receive
equal weighting. FAA does have plans to further improve this tool; however, the
Agency has not established target dates for completion. Because risk assessment
is the core of the ATOS program, FAA needs to emphasize improving the risk
assessment process and establish target dates for further improvements.


Decisions on Risks Are Still Subjective in Many Cases and Often Based on
Inspector Knowledge Because of the Lack of Comprehensive, Quality Air
Carrier and Inspection Data
FAA inspectors are increasingly using data in decision-making, but they continue
to rely more on their past knowledge and experience rather than data to identify
risk areas. Inspector experience and knowledge are important, but inspectors also
need to evaluate inspection and air carrier data when making decisions on areas of
risk. Inspectors for the three air carriers near or close to bankruptcy significantly
departed from ATOS-recommended surveillance in order to effectively monitor
financially distressed air carriers. Inspectors did not consider ATOS inspection
checklists adequate to gather data to respond to industry changes, and the system
did not provide the flexibility needed to change planned inspections to effectively
respond to air carriers’ financial distress. Inspectors developed checklists to
address specific issues related to financial distress that were not covered by
ATOS. Inspectors stated they relied upon these inspections because the ATOS
checklists were not comprehensive enough and the ATOS system was not flexible
or easy to use.

While it is commendable that FAA took steps to develop a process to monitor
potential risks associated with financial distress, some FAA officials agreed that
substantial use of the alternative checklists hinders inspectors’ ability to conduct
ongoing analysis of risks in air carrier systems because the results from
12
     The minimum equipment list contains the aircraft instruments and equipment that can be inoperative under specified
     conditions, allowing the aircraft to be operated until these items can be fixed.


Findings
                                                                                 21


inspections completed using the alternative checklists cannot be effectively
merged with data gathered from planned ATOS inspections to identify emerging
safety trends. Consequently, all identified risks may not be considered when
planning future surveillance. Analyzing data is especially important in an
environment where air carriers are making major changes in their operations.

FAA analysts acknowledged that data obtained from ATOS inspection checklists
are difficult to analyze because the checklist questions need to be further improved
and inspection findings are reported using unstructured text. This makes them
more difficult to use to identify emerging safety trends. FAA officials told us that
the new checklists revised in January 2004 were only an interim step and that the
questions will be revised for ATOS version 2.0, which is not scheduled to be
finished until after FY 2006. The continuing lack of useful safety inspection data
hindered analysts’ and inspectors’ ability to effectively identify areas of risk.
According to FAA, the structure and formats that are used in ATOS data are still
evolving and more work is still needed to make the data more efficient and
effective in analysis efforts.

In addition, inspectors did not gather sufficient air carrier data in all cases to
understand and address risks associated with changes air carriers were making.
For example, inspectors for each of the five network air carriers identified
personnel reductions as a potential risk; however, inspectors for only one carrier
obtained the information necessary to assess the effect of staff reductions on air
carrier operations (i.e., which departments the reductions occurred in). Therefore,
FAA inspectors were not fully aware of personnel changes when deciding risks
and locations to target. In fact, at one office where the air carrier had reduced
staffing by almost 14,000 employees, the FAA inspectors responsible for oversight
of this carrier did not know the correct number of staff reductions, nor in which
departments and locations the reductions had occurred.

To ensure its systems are adequately developed to respond to the rapid pace at
which air carriers are making changes, FAA needs to monitor the implementation
of recent changes to the ATOS risk assessment tools and processes. This will
ensure that the frequency of planned inspections is commensurate with potential
risks identified, inspectors are able to effectively change inspection plans when
new risks are identified, and ATOS inspections are prioritized so that high-risk
areas are inspected before lower-risk areas. In addition, FAA needs to improve
data used for risk assessment by updating inspector guidance materials, including
questions on inspector checklists, to aid inspectors in evaluating air carriers
undergoing change (such as financial distress and growth), and by requiring
inspectors to obtain data from air carriers so they can effectively respond to
changes such as personnel reductions.




Findings
                                                                                   22


Inspectors Using the Interim SEP Process Need the Tools and
Guidance To Effectively Identify Risks, Conduct Inspections, and
Ensure Risks Are Mitigated
FAA provided inspectors with systems safety training on evaluating air carriers’
systems. However, there are key differences in how FAA oversees ATOS versus
non-ATOS air carriers. Inspector procedures and checklists used for conducting
surveillance and the processes for identifying risk and analyzing data differ
between SEP and ATOS. As a result, FAA does not conduct consistent oversight
for all air carriers. FAA plans to add only three air carriers to ATOS during
FY 2005. FAA’s plan does not establish definitive milestones beyond FY 2005
for transitioning the remaining air carriers to ATOS.


Key Differences Exist in the Oversight of ATOS and Non-ATOS Air
Carriers
When planning their surveillance, SEP inspectors have a process to document
potential risks they have identified within air carrier systems, the severity of those
risks, and the actions needed to ensure air carriers properly manage or mitigate the
risks. However, FAA did not begin providing checklists for inspectors to use in
conducting their inspections of air carrier systems like the ones used during ATOS
inspections until FY 2005. The lack of checklists hindered inspectors’ ability to
evaluate whether systemic problems existed during a period of significant growth
and change.

For example, at one air carrier, we identified 23 maintenance-related discrepancies
that had not been recorded in aircraft logbooks for two of the three aircraft
observed at this air carrier. These discrepancies included a misaligned alternate
static port (which allows flight critical instruments to provide readings for airspeed
and altitude), which could have resulted in incorrect readings; electrical wires that
were disconnected and dangling, posing a fire hazard; and a circuit breaker in the
cockpit that was broken off, which could have prevented the flight crew from
using it in an emergency.

The air carrier’s subsequent inspection of the same two aircraft identified an
additional 123 discrepancies. Although FAA inspectors identified “airworthiness”
as a risk area, they did not focus their inspections on determining whether a
systemic problem existed in the air carrier’s overall maintenance program, its
inspection program, or its Continuous Analysis and Surveillance System that
allowed these discrepancies to go undetected. ATOS inspection checklists would
provide questions to guide inspectors in identifying weaknesses in these key
internal systems.




Findings
                                                                                   23


In addition, SEP inspectors for all five low-cost air carriers we reviewed did not
clearly define risks found in the air carriers’ maintenance and operations or
provide detailed action plans to ensure risks were mitigated as required by SEP
guidance. Our review of 71 risk worksheets found that 18 (25 percent) of them
did not include descriptive information clearly defining the risk and that
22 (31 percent) did not provide detailed information regarding the inspectors’
action plans to ensure risks are mitigated. FAA’s guidance also requires inspectors
to document whether risks are mitigated (i.e., whether air carriers had taken
sufficient action to correct the condition that prompted inspectors to identify a
potential risk). However, our review found that inspectors did not document
whether risks had been mitigated for 49 percent of the risks identified

Until FAA is in a position to move all air carriers to ATOS, FAA needs to
improve the SEP process. FAA plans to complete incorporation of ATOS
inspection checklists into SEP by the end of FY 2005. FAA must ensure that it
meets this milestone. In addition, in July 2004, FAA implemented new risk
tracking procedures to ensure inspectors are following these new procedures and
are clearly describing risks and action plans in accordance with SEP guidance.


FAA Needs to Establish Definitive Milestones for Transitioning Remaining
Air Carriers to ATOS
The SEP process is currently being used for the oversight of 112 air carriers,
including low-cost, regional, and cargo air carriers. One additional air carrier is
slated to be added to ATOS in FY 2005—Trans States. FAA has developed a plan
to transition the remaining air carriers to ATOS but the plan does not establish
milestone dates beyond FY 2005. The plan merely states that air carriers are
selected for transition based on certain criteria, one of which is the availability of
FAA oversight resources. FAA needs to establish a more definitive goal for the
number of air carriers that will be added to ATOS each year, taking into account
its staffing and budgetary resources.


RECOMMENDATIONS
To maintain the highest level of safety during this period of transition in the
aviation industry, we recommend the Federal Aviation Administrator:

1. Establish polices and procedures to ensure national analyses and support
   groups provide stronger national assistance to field offices so that risk
   assessments and inspections of air carrier changes are conducted in a timely
   and consistent manner.



Recommendations
                                                                                24


2. Require field office managers to ensure inspectors assess risks and adjust their
   surveillance plans, if necessary, when air carriers make significant changes to
   their operations and maintenance programs, such as closing maintenance
   facilities, reducing personnel, outsourcing maintenance, and reducing gate
   turnaround times.

3. Clarify and expand inspector guidance to: (a) ensure inspectors do not wait
   until bankruptcy to begin monitoring data related to financial distress and
   adjust surveillance; (b) ensure inspector checklists are modified to include
   questions that incorporate evaluation of air carrier changes, such as financial
   distress and growth; (c) emphasize the importance of obtaining and continually
   monitoring detailed data for carriers experiencing growth, financial distress,
   personnel reductions, and other changes so that inspectors can effectively
   respond to the changes; and (d) require inspectors to closely monitor growth
   indicators such as increases in operations or additions of new destinations, as
   the changes occur.

4. Develop a better method of providing financial information to inspectors either
   through SPAS or from other sources.

5. Conduct an increased number of nighttime inspections to gather sufficient data
   to conduct analysis and determine if there is an elevated risk factor associated
   with nighttime maintenance that needs to be included in future ATOS
   surveillance plans.

6. Monitor the implementation of recent changes to the ATOS risk assessment
   tool and processes to ensure that: (a) the frequency and number of planned
   inspections is commensurate with potential risks identified, (b) inspectors are
   able to effectively change inspection plans when new risks are identified, and
   (c) ATOS inspections are prioritized so that high-risk areas are inspected
   before lower-risk areas and target dates are established for completing
   additional improvements to the risk assessment tool and processes.

7. Meet the FY 2005 milestone for incorporating the ATOS inspection checklists
   into SEP.

8. Improve the SEP process by requiring inspectors to (a) follow SEP risk
   tracking procedures implemented in July 2004, (b) document risks and action
   plans in accordance with SEP guidance, and (c) follow SEP procedures to
   override required inspections when new risks are identified.

9. Establish a more definitive goal for the number of air carriers that will be
   added to ATOS each year, considering the Agency’s current staffing and
   budgetary resources.


Recommendations
                                                                                  25


10. Determine if it can make enough efficiency gains in its operations to sustain
    the planned cut of 233 safety inspectors beyond 2005.


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
On April 11, 2005, FAA provided comments to our draft report. While FAA went
to great lengths to express general disagreement with some of the conclusions in
our report; the Agency generally agreed with our recommendations. Specifically,
FAA agreed to take action to implement five of our draft report recommendations
and partially agreed to implement four recommendations. When implemented,
many of the actions promised by FAA should make a safe aviation system even
stronger. FAA’s full response can be found in the Appendix on page 36. After
FAA provided its response to our draft report, we added a recommendation on
inspector staffing. FAA’s response to the draft report recommendations is
summarized below.

Recommendations 1 and 2: FAA agreed to develop procedures to strengthen
national assistance to field offices and to require field office managers to ensure
inspectors assess risks and adjust their surveillance plans when air carriers make
significant changes. FAA’s proposed actions, when implemented, will improve
the consistency and timeliness of FAA oversight.

Recommendation 3: FAA agreed to develop job aids and revise guidance to
ensure inspectors are continually monitoring the effect of industry changes, such
as financial distress. However, they did not agree to modify existing inspector
checklists. We do not understand FAA’s rationale because the inspector checklist
is the primary tool used to guide inspectors in performing their oversight. In our
view, providing specific questions on the checklists related to financial distress
and growth would provide FAA data on potential risks associated with industry
changes on a continuous basis. It is unclear how the proposed job aids will ensure
inspectors are continually checking for risks associated with industry changes.
Therefore, we are requesting that FAA provide a more detailed explanation on
how the proposed job aids will provide inspectors the ability to continually
monitor the effect of air carrier changes and how the job aids would be used in
relation to inspector checklists.

Recommendation 4: FAA’s planned action to ensure that principal inspectors
conduct regular meetings with air carrier personnel to determine the financial
status of air carriers could provide inspectors with useful information. However,
we disagree that this process will remedy problems identified in our report. At the
time of our review, inspectors had been instructed to assess changes in air carriers’


Agency Comments and Office of Inspector General Response
                                                                                 26


financial condition, but we determined that they did not consistently obtain this
data and when it was obtained, it was not done in a timely manner. The intent of
our recommendation was to bridge this gap in timeliness and consistency by
having FAA obtain the data from independent sources and provide those data to
inspectors. To ensure these data are readily available to all inspectors so they can
assess potential risks and plan inspections, we encourage FAA to develop a
method to incorporate the air carrier data into SPAS or develop an alternative
method of ensuring the data are readily available. Accordingly, we are requesting
that FAA reconsider its response.

Recommendation 5: FAA partially agreed with our recommendation to conduct
an increased number of nighttime inspections to gather sufficient data to determine
if there is an elevated risk factor associated with nighttime maintenance. FAA
stated that data from several field offices indicate adequate off-hour surveillance;
however, our review showed that inspectors for the 10 air carriers we reviewed
only spent an average of 3 percent of their total work time conducting inspections
at night. FAA agreed to require inspectors to identify the types of maintenance
accomplished during off-hours and to collect enough inspection data during off-
hour periods to assess risks. These actions are responsive to our recommendation.

Recommendation 6: Although FAA agreed to monitor implementation of recent
changes to the ATOS risk assessment tool, the proposed action to conduct field
surveys does not meet the intent of our recommendation. In our view, conducting
surveys of field office managers will not ensure inspectors are consistently
following the new procedures, prioritizing their inspections by risk, and planning
the frequency of inspections commensurate with risk levels identified. Ensuring
inspectors comply with these requirements is important because recent changes to
ATOS rely more heavily on inspectors to determine the number of planned
inspections.

In addition to its planned field surveys, we encourage FAA to conduct reviews of
completed risk assessments and comprehensive surveillance plans. These reviews
could be accomplished by the national analyses and support groups or through an
internal System Process Audit to assess the effectiveness of the new policies and
procedures and whether field offices are consistently following ATOS procedures.

We are requesting that FAA reconsider its response and develop a process that
will meet the intent of our recommendation, including an estimated target date for
completion. In addition, we are requesting that FAA provide its planned action,
including an estimated target date, for establishing future milestones for improving
the risk assessment tool.

Recommendations 7 and 8:           FAA’s proposed action to meet the
FY 2005 milestone for incorporating the ATOS inspection checklists fully


Agency Comments and Office of Inspector General Response
                                                                                  27


addresses our recommendation. However, FAA did not describe how and when
the Agency would remind management of its requirement to ensure inspectors
follow existing SEP procedures for tracking risks, documenting risks and action
plans, and overriding required inspections when new risks are identified.
Therefore, we are requesting that FAA provide additional information on the
method and estimated target date for improving the SEP process.

Recommendation 9: FAA partially agreed with our recommendation to establish
a more definitive goal for the number of air carriers that will be added to ATOS
each year. FAA stated that it would continue setting specific fiscal year goals.
However, this action does not change the way FAA is currently planning the
transition of air carriers to ATOS. As stated in our report, FAA still has not
developed a target date for adding all air carriers to ATOS. At the current rate of
adding three air carriers to ATOS each year, it could take FAA 37 years to
complete this transition. The intent of our recommendation was for FAA to
develop more definitive goals that project beyond each fiscal year. A multi-year
plan would provide FAA with a framework to demonstrate its commitment to
converting all air carriers to ATOS, FAA’s more comprehensive risk-based
oversight system. To do this, FAA must clearly indicate in its transition plan how
long it will take to transition all air carriers to ATOS, taking into account current
staffing and budgetary resources.

Therefore, we are requesting that FAA reconsider its response and develop a more
definitive plan that will show its best estimate of when all commercial air carriers
will be converted to ATOS.

In addition to its response on our report recommendations, FAA also made
general comments about its view of our report conclusions. FAA stated it
disagreed with the report’s inference that changes occurring in the industry are
unknown and unaccounted for by FAA employees who oversee air carriers and
that these industry changes represent risks requiring increased inspections. FAA
also stated that the changes discussed in the report are not new and “insidious.”

Our report does not state that FAA employees did not know about changes in the
industry. Rather, we reported that:

   9 inspectors did not respond consistently and in a timely manner to similar air
     carrier changes that were occurring nationwide,

   9 key processes used by inspectors to identify risks in air carrier systems
     were not working effectively, and

   9 inspectors were not continually monitoring key data, such as personnel
     reductions.


Agency Comments and Office of Inspector General Response
                                                                                  28


In addition, while general changes were known, in some cases inspectors did not
obtain key details to determine the potential impact of the changes. As a result,
inspectors’ ability to effectively respond to industry changes was diminished.

Our report also does not assert that changes such as financial distress and
outsourced maintenance were new and “insidious.” In fact, we reported that the
changes air carriers are making are not inherently unsafe, and despite financial
pressures, large U.S. air carriers have maintained an impressive safety record. We
recognize that the United States has the safest aviation system in the world. We
believe that implementation of the recommendations in this report will make the
system even stronger.

Key points in our report were that:

   9 The magnitude of air carrier changes and the pace at which they are
     occurring require FAA to have a comprehensive, flexible, and data-driven
     oversight system to ensure the public that safety will not be compromised.

   9 FAA has made progress in moving to a more risk-based, data-driven air
     carrier oversight system designed to permit inspectors to respond to the
     types of changes occurring in the industry. However, the systems were not
     working effectively and did not permit inspectors to consistently identify
     areas of greatest potential risks.

Our conclusions are supported by two internal reports issued by the ATOS
program office and the Flight Standards Safety Analysis Information Center on
February 2 and March 10, 2004, respectively. In these reports, FAA states that
inspections are not always data-driven, approximately half the ATOS field offices
continue to rely heavily on principal inspector knowledge, and there is a wide
variation in how inspectors interpret ATOS risk indicators.

FAA stated that it disagreed with our conclusion that increased risk should drive
increased inspections. However, FAA’s guidance and risk assessment processes
in effect during our audit directly refute FAA’s statement. Specifically, the
guidance:

   9 directed inspectors to increase the frequency or number of inspections when
     an increased level of risk was identified.

   9 stated that based on sound data analyses, there may be valid reasons why
     inspectors might want to increase the number of inspections even more than
     the frequency recommended by the automated system.

We support FAA’s move toward a data-driven, risk-based system. However, FAA
still needs to ensure inspectors focus their inspections on areas of greater risk and

Agency Comments and Office of Inspector General Response
                                                                                 29


conduct an adequate number of inspections to obtain sufficient data. Gathering
enough data to use in making decisions on whether air carriers’ systems are
working effectively is important. It is also important for FAA’s quality assurance
philosophy to be well defined in Agency policies and procedures, and for
inspectors in the field to consistently support and follow this approach.


ACTION REQUIRED
FAA’s planned corrective actions resolve four of the nine recommendations in our
draft report and will be subject to our audit follow-up process. However, we are
requesting FAA reconsider its position or provide additional data for five of the
nine recommendations and provide a response on its plan to address our
recommendation on inspector staffing. We request that FAA:

   9 Provide a more detailed explanation for Recommendation 3 on how the
     proposed job aids will provide inspectors the ability to continually monitor
     the effect of air carrier changes and how the job aids would be used in
     relation to inspector checklists.

   9 Reconsider its response for Recommendation 4 and develop a process to
     provide inspectors with consistent financial data through SPAS, or an
     alternative process to ensure that the data are readily available to inspectors
     when assessing risks and planning their inspections.

   9 Reconsider its response for Recommendation 6 and develop a process to
     ensure that the frequency and number of planned inspections are
     commensurate with potential risks identified; inspectors are able to
     effectively change inspection plans when needed; and high-risk areas
     receive inspection priority. FAA should also provide estimated target dates
     for implementing these procedures and identify actions planned to establish
     milestone dates for future improvements to the ATOS risk assessment tool.

   9 Provide information for Recommendation 8 on the method and estimated
     target date for reminding management of the requirement to follow
     SEP procedures.

   9 Reconsider its position on Recommendation 9 and develop definitive goals
     that not only project the number of air carriers that will be transitioned to
     ATOS each fiscal year but also shows an estimate of when all air carriers
     will be transitioned to ATOS.

These five recommendations will remain unresolved until we receive your written
response.


Action Required
                                                                              30


In accordance with Department of Transportation Order 8000.1C, we request that
FAA provide additional information on actions you intend to take to fully address
the five recommendations along with estimated target dates. We would appreciate
receiving your response within 30 calendar days. We appreciate the cooperation
of FAA representatives during this audit. If you have any questions concerning
this report, please contact me at (202) 366-0500 or Lou Dixon, Program Director,
at (404) 562-3770.




Action Required
                                                                  31




EXHIBIT A. ENTITIES VISITED OR CONTACTED

Office of the Secretary of Transportation
Air Carrier Fitness Division                 Washington, DC


FAA

Headquarters:
   Flight Standards Service                  Washington, DC
   Certification and Surveillance Division   Dulles Airport, VA


Certificate Management Offices for:
   AirTran Airways                           Orlando, FL
   American Airlines                         Fort Worth, TX
   Delta Air Lines                           College Park, GA
   Northwest Airlines                        Bloomington, MN
   United Airlines                           Daly City, CA
                                             Denver, CO
   US Airways                                Coraopolis, PA


Flight Standards District Offices in:
   Denver, CO
   Belleville, MI
   Indianapolis, IN
   Garden City, NY
   Atlanta, GA
   Schiller Park, IL
   Fort Lauderdale, FL




Exhibit A. Entities Visited or Contacted
                                                                  32



Air Carriers
   AirTran Airways                            Orlando, FL
   American Airlines                          Fort Worth, TX
   ATA Airlines                               Indianapolis, IN
   Delta Air Lines                            Atlanta, GA
   Frontier Airlines                          Denver, CO
   JetBlue Airways                            New York, NY
   Northwest Airlines                         Minneapolis, MN
   Spirit Airlines                            Detroit, MI
   United Airlines                            San Francisco, CA
   US Airways                                 Pittsburgh, PA


Industry and FAA Inspector Workforce Representatives
   Air Transport Association                  Washington, DC
   Professional Airways Systems Specialists   Washington, DC




Exhibit A. Entities Visited or Contacted
                                                                               33




EXHIBIT B. OBJECTIVES, SCOPE, METHODOLOGY, AND PRIOR
AUDIT COVERAGE
This report provides the results of two audits—FAA’s oversight of financially
distressed air carriers and FAA’s oversight of low-cost air carriers. Because both
audits had similar results regarding FAA’s oversight, we determined that a single
audit report was the most effective way to address our findings. The following
objectives, scope, and methodology were used in conducting the audits.


Objectives
The combined objectives of these reviews were to determine whether: (1) action
taken by FAA to monitor financially distressed air carriers is effective, (2) ATOS
and SPAS are used effectively to monitor financially distressed air carriers by
providing the data and tools inspectors need to conduct their work, (3) FAA is
effectively implementing procedures to heighten surveillance of low-cost air
carriers during periods of growth or change, and (4) FAA’s risk-based surveillance
system is used effectively to target identified risk areas and to aid FAA in the
allocation of inspector resources for oversight of low-cost air carriers.


Scope
The audit of FAA’s oversight of financially distressed air carriers was conducted
between April 2003 and May 2005. The audit of FAA’s oversight of low-cost air
carriers was conducted between August 2003 and May 2005. The audits were
conducted in accordance with Government Auditing Standards prescribed by the
Comptroller General of the United States and included such tests as we considered
necessary to provide reasonable assurance of detecting abuse or illegal acts.

To evaluate FAA oversight of financially distressed air carriers, we visited FAA
offices and five network air carriers. We selected three network air carriers that
had declared bankruptcy or had been reported to be close to bankruptcy. We also
selected two network air carriers that had experienced significant and sustained
monetary losses but were not yet reported to be close to bankruptcy. To evaluate
FAA oversight of low-cost air carriers, we selected five air carriers that were
identified in FAA’s Flight Schedule Data System as low-fare air carriers, were
regularly identified by the aviation industry as low-cost air carriers, and were
experiencing growth. Exhibit A contains a list of the entities we contacted or
visited during our review.




Exhibit B. Objectives, Scope, Methodology, and Prior Audit Coverage
                                                                               34


Methodology
To determine the effectiveness of action taken by FAA to monitor financially
distressed air carriers, we obtained and reviewed the processes, procedures, and
guidance FAA inspectors use to perform oversight of air carriers during periods of
financial distress. We discussed this guidance: “Monitoring Part 121 Operators
Before, During, and After Labor Dispute, Strike, or Bankruptcy” (FAA Order
8300.10, Chapter 125), with FAA Flight Standards management in Washington,
DC. In addition, we identified the significant changes made by the selected
network air carriers over the last 2 years and determined what actions that FAA
and air carriers have taken to ensure those changes have not adversely affected
safety. To accomplish this work, we interviewed FAA managers, inspectors, and
analysts; analyzed FAA inspection records; interviewed air carrier quality
assurance, operations, and maintenance personnel; reviewed air carrier reports;
and accompanied FAA inspectors during aircraft inspections.

To evaluate FAA’s actions taken to monitor low-cost air carriers during periods of
growth or change, we obtained and reviewed the processes, procedures, and
guidance FAA inspectors use to perform oversight of air carriers during periods of
growth or change. We determined whether FAA inspectors were using the
guidance “Monitoring Operators During Periods of Growth or Major Change”
(HBAT 98-36 and HBAW 98-21) during their surveillance. Also, to determine the
effectiveness of FAA’s oversight of growth and changes occurring at low-cost air
carriers, we accompanied FAA inspectors during inspections of airport ramp
operations and maintenance facilities at nine locations. We participated in the
inspection of aircraft and verified that identified discrepancies were recorded in
the aircraft’s maintenance log book. At maintenance facilities, we observed shop
conditions, reviewed training records, and sampled procedures such as control of
calibrated tools and parts inventory. In addition, we interviewed FAA inspectors,
analyzed FAA inspection records, reviewed air carrier reports, and analyzed
inspector travel records.

To evaluate FAA’s process and tools used to identify risks at air carriers, we
reviewed the ATOS Air Carrier Assessment Tools (ACAT) prepared for the five
network air carriers and the SEP Surveillance and Evaluation Assessment Tools
prepared for the five low-cost air carriers for FYs 2003 and 2004. For ATOS, we
determined what data inspectors used to identify risks on the ACAT and how they
changed the number and focus of inspections to target high-risk areas. We also
attended FAA’s FY 2004 annual inspection planning meetings for the five
network air carriers we reviewed to determine how risks are identified and
inspections are planned. For SEP, we reviewed risk work sheets for FY 2003 to
determine if inspectors followed FAA guidance for identifying and defining risks,
preparing action plans to resolve risks, and documenting inspection results in
FAA’s Program Tracking and Reporting Subsystem inspection records.


Exhibit B. Objectives, Scope, Methodology, and Prior Audit Coverage
                                                                                 35


To determine if air carriers’ outsourced maintenance practices changed from 2002
to 2004, we obtained DOT Form 41 financial data that air carriers submitted to the
Department’s Bureau of Transportation Statistics during calendar years 2002,
2003, and the first two quarters of 2004 for nine ATOS air carriers and five low-
cost air carriers. We compared the amount of direct maintenance expense air
carriers incurred for outside airframe and engine repairs to the amount the carriers
incurred for total direct flight equipment maintenance performed internally by the
carriers.

To identify growth trends of low-cost air carriers, we analyzed data from
Form 41 reports; the Airclaims database, Safety Performance Analysis System,
and Flight Schedule Data System; quarterly and annual air carrier financial reports
filed with the Securities and Exchange Commission; and air carrier officials. We
measured the growth of low-cost air carriers by analyzing the increases in air
carrier flight operations, passenger enplanements, available seat miles, fleet size,
and personnel from calendar year 2000 through the first 8 months of 2004.

We determined that FAA and DOT data were sufficiently reliable for measuring
the operational changes in the aviation industry. We assessed the reliability of
FAA and DOT databases by interviewing Agency officials to identify the data
integrity controls in place to ensure accuracy of data and comparing selected data
to information obtained from air carriers and Securities and Exchange
Commission financial reports.

To determine what percentage of FAA inspectors’ time is spent conducting
surveillance at night, we randomly sampled 37 FAA maintenance inspectors’ time
records for the five network air carriers we visited and reviewed time records for
26 FAA maintenance inspectors providing oversight of the five low-cost air
carriers we reviewed. We defined nighttime hours as time worked between
6:00 p.m. and 6:00 a.m. To estimate the percentage of air carrier maintenance that
is conducted at night, we interviewed air carrier personnel.


Prior Audit Coverage

Report AV-2002-088, “Air Transportation Oversight System,” April 8, 2002
We concluded that ATOS is conceptually sound because it is data-driven, targets
inspector resources to the highest-risk areas, and results in comprehensive
solutions to safety problems.       However, we found shortfalls in FAA’s
implementation of ATOS. First, FAA needed to finish developing key elements of
ATOS—specifically, its processes for analyzing ATOS inspection results and for
ensuring corrective actions are implemented. A key part of this was to revise the
checklists inspectors use to conduct their inspections. Second, FAA needed to


Exhibit B. Objectives, Scope, Methodology, and Prior Audit Coverage
                                                                                    36


better prepare its inspectors to carry out ATOS by improving inspector training
and locating qualified inspectors where they are needed most. Third, FAA needed
to establish strong national oversight and accountability to ensure consistent
ATOS field implementation.

In response to our report recommendations, in March 2003 FAA finished
deploying the last two elements of the ATOS process (i.e., data analysis and
implementation of corrective actions) and in January 2004 completed new
inspector checklists. FAA also trained inspectors in system safety concepts and
developed a new program for remotely sited inspectors. Further, FAA put a new
management team in place in 2002 that was committed to improving ATOS and
correcting past program problems and delays.


Report AV-2003-047, “Review of Air Carriers’ Use of Aircraft Repair
Stations,” July 8, 2003
We found that airlines are increasingly outsourcing maintenance to repair stations.
Despite the increase, FAA concentrates its oversight of airline maintenance on
work performed at air carriers’ in-house facilities. Discrepancies in U.S. and
foreign repair-station operations went undetected at 86 percent of the stations we
visited. The discrepancies included using improper parts and equipment and
having uncorrected repetitive deficiencies. Because of the poor documentation
received and the lack of focus by foreign authorities on FAA requirements, FAA
was unable to determine if FAA-certified foreign repair stations meet FAA
standards.

We made nine recommendations to improve FAA’s oversight, including that FAA
must determine trends in air carriers’ use of repair stations; find out which repair
stations the carriers use to perform maintenance; perform more frequent, detailed
reviews of those facilities air carriers use the most; and take steps to ensure foreign
authorities are following FAA standards in conducting inspections. FAA
concurred with our recommendations.




Exhibit B. Objectives, Scope, Methodology, and Prior Audit Coverage
                                                                                  37




APPENDIX. AGENCY COMMENTS

                                          Memorandum
INFORMATION: Draft Report on the Audit of               Date:    April 11, 2005
Safety Oversight of an Air Carrier Industry in
Transition

Assistant Administrator for Financial Services       Reply to
                                                     Attn. of:
  and Chief Financial Officer

Assistant Inspector General for Aviation Audits


Thank you for providing us with the draft report of your audit of “Safety Oversight
of an Air Carrier Industry in Transition.” We appreciate your acknowledgement of
the actions we have taken to improve the Air Transportation Oversight System
(ATOS) and the Surveillance and Evaluation Program (SEP), including
implementation of the data analysis and risk management elements of ATOS and
deployment of new checklists for ATOS inspectors. These new checklists are
currently being incorporated into the SEP program. Your report also
acknowledges a recent change we made to ATOS software that improves the
automated development of a risk-based inspection plan, makes retargeting
inspections easier, and allows clear identification of priorities based on the
relative criticality of work elements. All of these improvements address specific
findings and recommendations in the report.

We respectfully disagree with the report’s inference that changes occurring in the
industry are unknown and unaccounted for by FAA employees who oversee part
121 air carriers and that these industry changes represent risks requiring
increased inspections.

The industry changes discussed in the report—financial stress, outsourced
maintenance, operational changes driven by new marketing strategies, growth,
night-time maintenance, perceived increases in ramp incidents—are not new and
not insidious. Our certificate managers have been monitoring these types of
changes since 1996.. In fact, the Air Transportation Oversight System
recognizes that the industry business model is constantly changing in response
to economic and other pressures and was built as an oversight system that
analyzes risks. The potential risks associated with these changes are addressed
in annual surveillance plans and, for that reason, frequently do not require


Appendix. Agency Comments
                                                                                  38


retargeting inspections. FAA senior executives are regularly briefed by the
certificate managers of many of the airlines discussed in the report on exactly the
conditions that the report’s authors imply are not properly monitored by FAA. We
believe that the effectiveness of FAA oversight and of the industry’s ability to deal
with changing conditions is reinforced by the fact that since 1996 when we began
monitoring these changes, the accident rate has declined so significantly that the
past three years have been the safest in air carrier history.

We also disagree with your conclusion that the portions of the report that suggest
increased risk should drive increased inspections. This theme is contrary to your
strong endorsement the OIG’s acknowledgement of the conceptual soundness of
a risk-based approach to oversight. and implies that FAA should perform a
quality control function. We intentionally moved away from a quality control
inspection process. We realize the futility of trying to police millions of annual
flight operations and maintenance activities. We aligned our oversight system
with a quality assurance methodology when we implemented ATOS and SEP.,
the subject programs of the audit. The tools developed for ATOS and SEP focus
on program assessment and risk management. In other words, we are
concerned with determining how well the airline is managing its processes and
whether or not those processes are performing as designed. Our inspection
tools are designed to collect data for these purposes. The only reason to
increase inspections is to collect additional data when they are needed.

The quality assurance approach of ATOS and SEP is the best way to leverage
our limited resources. ATOS and SEP processes engage air carriers in the
management of their safety issues. This is greater leverage than the
enforcement deterrence provided through quality control. Nevertheless,
enforcement deterrence remains a byproduct of the data collection we do for
ATOS and SEP.

Attached is the agency’s response to all recommendations contained in the
report. For the most part, these recommendations are complementary to our
existing plans and on-going activities to enhance and expand ATOS and SEP.

OIG Recommendation 1: Establish polices and procedures to ensure national
analyses and support groups provide stronger national assistance to field offices
so that risk assessments and inspections of air carrier changes are conducted in
a timely and consistent manner.

FAA Response: Concur. We will develop policies and procedures to be
published in FAA Order 8400.10, Appendix 6, and in Surveillance Evaluation
Program (SEP) documentation by March 31, 2006.

OIG Recommendation 2: Require field office managers to ensure inspectors:
(a) assess risks and adjust their surveillance plans, if necessary, when air
carriers make significant changes to their operations and maintenance programs,



Appendix. Agency Comments
                                                                                  39


such as closing maintenance facilities, reducing personnel, outsourcing
maintenance, and reducing gate turnaround times.

FAA Response: Concur. We will revise FAA Order 8400.10, Appendix 6, and
SEP documentation accordingly by March 31, 2006.

OIG Recommendation 3: Clarify and expand inspector guidance to: (a) ensure
inspectors do not wait until bankruptcy to begin monitoring data related to
financial distress and adjust their surveillance; (b) ensure inspector checklists are
modified to include questions that incorporate evaluation of air carrier changes,
such as financial distress and growth; (c) emphasize the importance of obtaining
and continually monitoring detailed data for carriers experiencing growth,
financial distress, personnel reductions, and other changes so that inspectors
can effectively respond to the changes; and (d) require inspectors to closely
monitor growth indicators such as increases in operations or additions of new
destinations, as the changes occur.

FAA Response: Partially concur. We do not agree that modification of existing
checklists is appropriate. We will develop job aids and revise FAA Orders
8400.10, Appendix 6, and 8300.10, Chapter 125, and SEP documentation to
meet the intent of this recommendation by March 31, 2006.

OIG Recommendation 4: Develop a better method of providing financial
information to inspectors either through SPAS or from other sources.

FAA Response: Partially concur. Principle inspectors meet regularly with air
carrier management to review financial status, as well as business plans to deal
with associated program changes. Based on these meetings, principle
inspectors assess risks and make appropriate adjustments to surveillance plans.
We believe monitoring financial status through meetings with the air carrier is
better than monitoring commercially available financial data, such as credit
ratings, investment advisories, and bankruptcy filings, which have proven to be
only weakly correlated with airline safety. We will revise FAA Orders 8400.10,
Appendix 6, and 8300.10, Chapter 125, by March 31, 2006, to ensure principle
inspectors conduct these regular meetings.

OIG Recommendation 5: Conduct an increased number of nighttime
inspections to gather sufficient data to conduct analysis and determine if there is
an elevated risk factor associated with nighttime maintenance that needs to be
included in future ATOS surveillance plans.

FAA Response: Partially concur. Notwithstanding that data from several
certificate management offices indicate adequate off-hour surveillance, we agree
to revise inspector guidance material by March 31, 2006, to require identification
of the types of maintenance accomplished during off-hours and to collect enough
inspection data during off-hour periods to assess risks.



Appendix. Agency Comments
                                                                               40



OIG Recommendation 6: Monitor the implementation of recent changes to the
ATOS risk assessment tool and processes to ensure that: (a) the frequency and
number of planned inspections is commensurate with potential risks identified,
(b) inspectors are able to effectively change inspection plans when new risks are
identified, and (c) ATOS inspections are prioritized so that high-risk areas are
inspected before lower-risk areas and establish target dates for completing
additional improvements to the risk assessment tool and processes.

FAA Response: Concur. The Flight Standards Certification and Surveillance
Division in accordance with its ISO 9000 requirements will conduct follow-up
surveys with ATOS certificate management teams to determine the effectiveness
of recent changes to ATOS automation.

OIG Recommendation 7: Meet the FY 2005 milestone for incorporating the
ATOS inspection checklists into SEP.

FAA Response: Concur. Consistent with the plan we developed in Fiscal Year
(FY) 2004, we agree to complete the implementation of SEP Module 4 in FY
2005.

OIG Recommendation 8: Improve the SEP process by requiring inspectors to
(a) follow SEP risk tracking procedures implemented in July 2004, (b) document
risks and action plans in accordance with SEP guidance, and (c) follow SEP
procedures to override required inspections when new risks are identified.

FAA Response: Concur. We will remind management of its requirement to
ensure that existing SEP procedures are followed.

OIG Recommendation 9: Establish a more definitive goal for the number of air
carriers that will be added to ATOS each year considering the Agency’s current
staffing and budgetary resources.

FAA Response: Partially concur. We agree to continue setting specific fiscal
year goals based on available staff and budget in conjunction with FAA’s
performance planning process.

If you have questions or need further information, please contact Anna Briataico,
Budget Policy Division, ABU-100. She can be reached at (202) 267-7131.




Appendix. Agency Comments
